<html>
<title> - RECLAIMING OUR IMAGE AND IDENTITY FOR THE NEXT SEVEN GENERATIONS</title>
<body><pre>[Senate Hearing 112-720]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-720

 
    RECLAIMING OUR IMAGE AND IDENTITY FOR THE NEXT SEVEN GENERATIONS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 29, 2012

                               __________

         Printed for the use of the Committee on Indian Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
78-924                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="85e2f5eac5e6f0f6f1ede0e9f5abe6eae8ab">[email&#160;protected]</a>  


                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. AKAKA, Hawaii, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN HOEVEN, North Dakota
MARIA CANTWELL, Washington           MIKE CRAPO, Idaho
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Loretta A. Tuell, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 29, 2012................................     1
Statement of Senator Akaka.......................................     1
Statement of Senator Barrasso....................................     2
Statement of Senator Franken.....................................     4
Statement of Senator Tester......................................     3

                               Witnesses

Carmelo, Tonantzin, Screen Actors Guild Award (SAG) Nominated 
  Actor..........................................................    32
    Prepared statement...........................................    34
Lee, Andrew J., Trustee, National Museum of the American Indian, 
  Smithsonian Institution; Executive, Aetna, Inc.................    11
    Prepared statement...........................................    13
McCracken, Sam, General Manager, NIKE N7; Chairman, N7 Fund......    28
    Prepared statement...........................................    30
Tahbone, Marjorie Linne Tungwenuk, Former Miss Indian World 2011-
  2012...........................................................    37
    Prepared statement...........................................    39
Titla, Mary Kim, Communications Officer, San Carlos Unified 
  School District;Board Member, National Indian Education 
  Association....................................................    16
    Prepared statement...........................................    19
Valbuena, Lynn, Chairwoman, Tribal Alliance of Sovereign Indian 
  Nations........................................................     5
    Prepared statement...........................................     9


    RECLAIMING OUR IMAGE AND IDENTITY FOR THE NEXT SEVEN GENERATIONS

                              ----------                              


                      THURSDAY, NOVEMBER 29, 2012


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:15 p.m. in room 
628, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. I call this hearing to order, the hearing of 
the Committee on Indian Affairs. I want to say aloha and thank 
you so much for being here today for the Committee's oversight 
hearing on Reclaiming Our Image and Identity for the Next Seven 
Generations.
    Over the past few decades, November has been a time to 
recognize and honor the contributions indigenous peoples have 
made in the United States. At the Federal level, what began as 
a day to honor Native peoples grew into a week and now it is 
the entire month of November. President George H.W. Bush 
declared in 1992 the Year of the American Indian.
    But for Native peoples, every day is Native heritage day. 
Every month is Native heritage month, and every year is the 
year of the American Indian. Tribes celebrate their vibrant 
cultures with centuries-old ceremonies, feasts, pow-wows and 
other celebrations throughout the entire year. Native languages 
are spoken, traditional foods are eaten. Songs and dances are 
shared, and most importantly, these traditions are passed on to 
the next generation.
    The month of November provides Native peoples opportunity 
to educate by sharing their history and culture with a larger 
audience. Many times this begins with breaking down harmful 
stereotypes of Native peoples perpetuated in many movies, 
television shows and by Native-themed mascots.
    Through continuous outreach and education, we will continue 
reclaiming our image and identity. Indian Country is privileged 
to have countless ambassadors, past and present, and many who 
are here today to shine a positive light on Native cultures and 
identity.
    As we tell our stories, more people learn about our 
contributions to government, military, science sports and other 
fields. As we tell our stories, people learn about how the 
Iroquois Confederacy influenced the founding fathers in 
drafting the United States Constitution with the concepts of 
freedom of speech, separation of powers and checks and 
balances. As we tell our stories, people learn about the 
contributions Natives had made to the United States Armed 
Forces, including the work of the Code Talkers in World War I 
and World War II.
    As we tell our stories, people learn about our 
contributions to science, including the work of Mary Golda 
Ross, the first Native American female engineer, and one of the 
most prominent scientists of the space age. As we tell our 
stories, people learn about the Big Kahuna, Duke Kahanamoku, a 
Native Hawaiian who was a five time Olympic medalist in 
swimming, and a member of the surfing hall of fame. And this 
was done in the 1920s. And Chris Wondolowski, from the Kawai 
Tribe, who became the most valuable player of major league 
soccer today.
    Today, we have two excellent panels of witnesses who will 
tell their stories and share their ideas on how we can continue 
to reclaim our image and identity for future generations. At 
this point, I would like to ask the members of the Committee to 
make their opening statements, and I will call on our friend 
and our leader here, Senator Barrasso, for his opening 
statement.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman. Thank 
you for holding this hearing. I want to thank all of our guests 
for being here.
    You introduced and I co-sponsored Senate Resolution 561, 
naming November as the National Native American Heritage Month. 
The resolution subsequently passed unanimously. Commemorating 
National Native American Heritage Month in our hearing today 
presents a very timely opportunity, an opportunity to reflect 
on how you, Mr. Chairman, have been a champion for Native 
Americans during your distinguished career in Congress.
    Mr. Chairman, I am not certain if we will be having 
additional hearings under your chairmanship and under your 
leadership. I did want to say it has been a great honor for me 
to serve with you as the Vice Chairman on this Committee. You 
have been a great friend and a wonderful teacher to so many of 
us that have had the privilege of working with and serving with 
you. You have led by example in carrying out our bipartisan 
tradition, and in your opening statement, you made reference to 
the Big Kahuna. I always thought of you as the Big Kahuna.
    [Laughter.]
    Senator Barrasso. You have been a great friend to Indian 
Country as well. As Chairman of this Committee, you have 
brought to the forefront many pressing issues facing Indian 
Country today. You have generated significant dialogue to build 
upon for future Congresses. The challenges in Indian Country 
can at times be daunting. Yet you, you so diligently worked to 
find and to advance solutions which improve the lives of Indian 
people.
    So I just wanted you to know that I appreciate all of your 
work, all of your dedication, on all of these matters. I do 
again want to welcome the witnesses, thank them for their 
testimony. But finally, Mr. Chairman, thank you for your 
service to Indian Country and to this Nation as well. Thank 
you, Mr. Chairman.
    [Applause.]
    The Chairman. Thank you very much.
    Now, Senator Jon Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman. I also want to 
welcome the witnesses in today's panels, and I will get to one 
of them in a minute.
    I too want to echo the Ranking Member's sentiments. I have 
had the honor and privilege of serving on two committees now of 
which you were chair. With you retiring out of the Senate after 
this session is over with, I just want to say thank you, thank 
you for your advocacy for the veterans across this Country in 
the Veterans Affairs Committee which you chaired, and thank you 
very much for your advocacy for Native Americans across this 
Country. Your quiet style of leadership I very much appreciate. 
You really have set the standard, and I want to thank you for 
it and thank you for your serving as Chairman of this 
Committee. I think you have made this Committee what it has 
been over the last two years. I want to thank you for bringing 
up important issues that impact Indian Country up and down the 
line
    The other person that I want to talk about very quickly is 
a chap by the name of Sam McCracken, who works for Nike 
Corporation, he oversees the N7 program. We will hear from Sam 
on the second panel. Sam is a Native Montanan from Wolf Point, 
I believe. We want to thank Sam for being here. We look forward 
to your testimony.
    As Montana's only member of the Indian Affairs Committee, I 
am proud to represent the interests of Native Americans, not 
only from Montana but also around the Country, to educate folks 
about how we all play a role in making things better in Indian 
Country. I have told this story very many times, about when I 
first got elected to the Senate six years ago and met with some 
Indian Tribes, talked about the challenges, and the challenges 
were many. They were so many that I said, time out, prioritize 
them. And the fact is, most if not all of the challenges that 
Indian Country faces revolve around poverty. And things that we 
can do to make that better, because we are not going to change 
that overnight, it is going to take time, and we need to 
continue to make inroads into the poverty that is in Indian 
Country by putting forth common sense policies to address 
those.
    But the bottom line is, there are a lot of other things we 
can do, and that is what this hearing is about, to reflect a 
better, positive self-image. I think it is critical, in this 
image-conscious society that we live in today.
    Now, last year, we had a hearing on this issue. I think it 
was helpful. But we need to know: are we headed in the right 
direction? Are we moving the ball down the court? Is modern 
media educating our communities in the proper way? I look 
forward to hearing from the witnesses about how things have 
gotten better, hopefully not worse. But if they have, I want to 
hear about that, too. Because we have to really listen for 
specific policies, specific recommendations for what this 
Committee can really push forward to improve the situation, 
focusing on those things that are truly bipartisan in nature.
    With that, Mr. Chairman, once again, thank you for your 
service.
    The Chairman. Thank you. Thank you very much, Senator Jon 
Tester.
    Senator Al Franken?

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Mr. Chairman. I would like to 
associate myself with the comments of the Vice Chairman and 
Senator Tester in thanking you for your leadership on this 
Committee and your consistent efforts to support Native people.
    The only part I don't want to associate myself with 
however, is that I never thought you were the Big Kahuna. I 
would like to disassociate myself there from the Vice Chairman.
    [Laughter.]
    Senator Franken. But I would echo everything else he said 
about your leadership and your bipartisanship, even if what I 
just said didn't seem bipartisan.
    Your dedication to American Indians, to Native peoples, is 
inspiring. I want to thank you in particular for helping to 
pass the Nelson Act, after so many years. With your help, we 
were able to resolve a 60-year old issue and now six bands of 
the Minnesota Ojibwe Tribe can access the funds that are 
rightfully theirs.
    This year is the 150th anniversary of the U.S.-Dakota War 
of 1862. It is an anniversary that serves really as a reminder 
of why this hearing is so important. This terrible war resulted 
in hundreds of deaths, the expulsion of the Dakota from 
Minnesota, and the hanging of 38 Dakota men, the largest 
execution in American history. Tragedies like the U.S.-Dakota 
War happened across the map of this Country during our Nation's 
early years, and remind us of why it is so important to 
commemorate Native Tribes and their contributions to this 
Country and their history.
    I was proud to join many of my colleagues on this Committee 
in introducing the resolution to designate November as National 
Native American Heritage Month. And I look forward to the 
testimonies of all our witnesses. We must continue to highlight 
contributions of indigenous peoples all across our Country and 
to support Tribal efforts to reclaim their identity, their 
culture, their history, their language. That is why I was so 
happy to co-sponsor Senator Johnson's bill authorizing the 
Native American Languages Program.
    I got to see one such program in action myself when I 
visited the White Earth Band of the Ojibwe's Circle of Life 
Academy, which offers daily Ojibwe culture and language 
classes. These programs are vitally important to keeping the 
culture alive, which is part of keeping your identity alive. 
American Indians are contemporary people. And we all need to 
understand that you are contemporary people, but you have a 
culture.
    I grew up in a town where we had the most Jewish suburb of 
Minneapolis, and we had Hebrew school. That is our language, 
and that is part of our identity. So when I go to a pow-wow and 
see Native members of Tribes in Minnesota celebrate their 
culture, they are doing what every culture in the Country does, 
which is celebrate their culture. But the American Indian has a 
special place, because they were the first, you were the first 
Americans.
    So I want to thank you, all the witnesses, for coming 
today. And I want to thank you, Mr. Chairman. If Big Kahuna 
sticks, I will go with it.
    [Laughter.]
    Senator Franken. Thank you.
    The Chairman. Thank you very much, Senator Al Franken.
    Senator Franken. I will be here all week.
    [Laughter.]
    The Chairman. As Chairman, it is my goal to ensure that we 
hear from all who want to contribute to the discussion. The 
hearing record is open for two weeks from today. I encourage 
everyone to submit your comments through written testimony.
    Serving on our first panel is Ms. Lynn Valbuena, 
Chairwoman, Tribal Alliance of Sovereign Indian Nations; Mr. 
Andrew J. Lee, Trustee, The National Museum of the American 
Indian and Executive at Aetna Inc.; Ms. Mary Kim Titla, 
Educator/Journalist. Welcome, all of you here, to this hearing 
today.
    Ms. Valbuena, will you please proceed with your testimony?

  STATEMENT OF LYNN VALBUENA, CHAIRWOMAN, TRIBAL ALLIANCE OF 
                    SOVEREIGN INDIAN NATIONS

    Ms. Valbuena. Thank you, Chairman Akaka.
    Good afternoon, Chairman Akaka, Vice Chairman Barrasso and 
distinguished members of the Committee. My name is Lynn 
Valbuena, Chairwoman of the Tribal Alliance of Sovereign Indian 
Nations, or TASIN, as we are more commonly referred to. I am 
also the former Vice Chair of the San Manuel Band of Mission 
Indians near San Bernardino, California, and previously served 
as Secretary of the National Indian Gaming Association.
    I currently serve as the Secretary of the Smithsonian 
Institution's National Museum of American Indians. I am also a 
trustee for the Autry National Museum in Los Angeles, 
California.
    Thank you for holding this hearing. TASIN is an 
intergovernmental association of nine federally-recognized 
Tribal governments throughout southern California. Our members 
include the Agua Caliente Band of Cahuilla Indians, the 
Augustine Band of Cahuilla Indians, the Cahuilla Band of 
Indians, the Chemehuevi Indian Tribe, the Pechanga Band of 
Luiseno Indians, San Manuel Band of Mission Indians, the Santa 
Rosa Band of Mission Indians, the Santa Ynez Band of Chumash 
Indians and the Soboba Band of Luiseno Indians.
    Our purpose is to protect and promote the Tribal sovereign 
governmental rights, our cultural identity and interests of 
federally-recognized Tribes located within the Federal Central 
District within the State of California. TASIN and member 
Tribes have been at the forefront of almost every major public 
policy issue in California affecting Tribal governments, either 
sponsoring or helping to change or shape legislation regarding 
Indian Heath Welfare, the Indian Gaming Special Distribution 
Fund, sacred sites protection, Internet gaming, protection of 
Tribal gaming exclusivity, off-reservation gaming, and the 
Revenue Sharing Trust Fund for non-gaming Tribes.
    I thank and commend you, Chairman Akaka, and members of the 
Committee and all of the senior staff here today for your 
diligence in reaching out to Indian Country throughout the 
year. We hope future committees will continue the regular and 
ongoing dialogue with Indian Country that you have helped to 
initiate.
    Our Native culture is central to the identity of American 
Indians. Our traditions, our belief systems, our inherent 
rights, our way of life, have all been handed down by our 
forefathers generation by generation.
    My daughter teaches my grandchildren the stories and 
traditions I taught her as a child, just like my mother did, 
who learned them from my grandmother, who taught me. My mother, 
Pauline Murillo, intuitively understood and would often talk 
about Indian people living in two worlds. In fact, I brought a 
book today to show you, my mother did write this book, Living 
in Two Worlds, that she did publish. I would like to give all 
of you a book when I leave today. This will tell of her life 
living in two worlds.
    She and my grandmother instilled in us kids the importance 
of educating the public and non-Indian people about who we are 
as Tribes and Tribal people. In fact, my mother even wrote a 
book about her experiences of living on the San Manuel Indian 
Reservation while she was also being an active citizen in the 
non-Indian world.
    Growing up, my mother and other Tribal children were teased 
and harassed by the non-Indian kids. They tolerated and endured 
a lot of bigotry and isolation, just like so many of our Tribal 
elders across the Country, because of stereotypes and 
inaccuracies. But the foundation of the modern rights and 
identity of sovereign nations is our unique legacy of 
traditions, language, values and beliefs, tested throughout 
history that shape and inform every Tribal member.
    It is for this reason, and despite past misguided Federal 
policies, hostilities, Hollywood stereotypes and hardships 
suffered by American Indians, that the self-identity of 
America's indigenous people remains strong and vibrant. We know 
who we are: the descendants of the original people who governed 
this land now called America. We are also her stewards.
    For much of the 20th century, the stereotype of a Native 
person was that of a feather bonnet-wearing Indian living in a 
tepee. I remember growing up and being asked about my tepee and 
if I put on my costume and feathers when I get home back to the 
reservation. But tepees, of course, were not indigenous to 
Southern California.
    Another heinous stereotype, which sadly continues to be 
perpetuated today, is that of the drunken Indian. Sadly, most 
of the public believes the stereotype. In 2010, TASIN conducted 
a statewide public opinion poll of California voters and found 
that 60 percent of respondents believe Indians living on a 
reservation have a high degree of alcoholism and substance 
abuse. Obviously, we recognize the rate of alcoholism and 
substance abuse among Native Americans being higher than the 
general population, but at the same time, a 2007 study by the 
Substance Abuse and Mental Health Services Administration found 
that fewer American Indians and Alaska Natives used alcohol in 
the past year as compared to other racial groups.
    Yet, the perception continues to hold. This has deep 
consequences for our youth since their self-worth has such a 
bearing on their long-term success in life. Research has 
concluded that negative stereotypes foster feelings of 
inferiority, shame and low self-esteem among our Native youth. 
Low self-esteem, which has been linked to academic performance 
and social adjustment, has also been identified as a factor in 
Native youth's historically low high school graduation rates 
and high suicide and homicide rates.
    I submit to you that history demands that we define 
ourselves to the non-Native world; otherwise these and other 
stereotypes will take hold and redefine our children and 
grandchildren.
    Clearly, IGRA's policy goal of promoting Tribal economic 
development, self-sufficiency, and strong Tribal governments 
through Indian gaming has brought unprecedented economic 
opportunities to Tribes and Tribal people. But it has also 
thrust Indian Tribes and Indian people into a very bright 
spotlight, raising awareness and creating greater interest into 
our way of life that for generations has been deeply cherished 
and held private.
    To a large extent, IGRA's success has resulted in a new 
stereotype: that every Indian is wealthy and owns a casino. In 
fact, our public opinion survey from 2010 found that 53 percent 
of Californians think Indian casinos have made Indian people 
rich. Naturally, this perception breeds envy and results in a 
backlash toward Tribes which creates new challenges with real 
policy and human consequences.
    In 2003, for example, Arnold Schwarzenegger ran a political 
ad saying he would force Tribes to pay their fair share. He 
exploited the commonly misunderstood circumstance that Tribal 
government gaming operations don't pay taxes. Of course he 
ignored the long-held principle that governments don't tax 
other governments. And when Schwarzenegger became governor, he 
demanded Tribes renegotiate their compacts and make payments 
into the State's general fund in order to help solve the 
State's budget crises.
    The result of this misguided policy was that the Ninth 
Circuit Court of Appeals last year ruled Schwarzenegger 
negotiated in bad-faith by effectively demanding an illegal 
tax. Even many elected officials, the people charged with 
policymaking, are also uninformed about our rights and who we 
are.
    This is one of the reasons TASIN has partnered with the 
California League of Cities, which is a coalition of 478 cities 
in California, to help educate elected officials at the local 
government level about Tribal governments. Each year, TASIN 
participates in an annual conference, and we welcome the local 
officials to come by and ask us questions about what we do. 
They always come by and ask us, are you here to build another 
casino, we want one in our city. The first year we 
participated, several elected officials asked, ``why are the 
Indians at our conference? What is the purpose of you being 
here? Why are you building more casinos?'` Even today, some 
just don't understand that we have governmental rights and 
responsibilities.
    That is why several TASIN Tribes every year undertake an 
educational campaign to bring awareness to people throughout 
our region about our rights, history and our cultural heritage. 
Every year, my Tribe and other Tribal governments air and place 
ads in regional media to tell our story in our way. We 
recognize that we bear the responsibility of educating non-
Native people about ourselves, but Congress and this Committee 
can and should take a couple of simple steps to help us, 
particularly since past Federal policies have contributed to 
and perpetuated the stereotypes that exist.
    It is very fitting that this hearing is held this month, 
November. November, as you are aware, is National American 
Indian Heritage Month. Before, it was Native American Week, 
which was held in November, then September, then the first week 
of December. My point is, not until 1995 have Presidents issued 
annual proclamations consistently designating November as 
National American Indian Heritage Month. And we deeply 
appreciate that President Obama signed into law the Native 
American Heritage Day Act of 2009, declaring the Friday after 
Thanksgiving as Native American Heritage Day. This was an 
important and long overdue acknowledgment by Congress, but we 
all need to do more to raise awareness of this important month 
and day.
    If you were to ask most Americans what the day after 
Thanksgiving is called, I would venture to guess that 99.9 
percent would say Black Friday instead of Native American 
Heritage Day. We all need to do more to raise awareness about 
this important day if we expect it to become a meaningful and 
relevant American tradition like Martin Luther King, Jr. Day, 
Labor Day, or even Columbus Day.
    Another important step this Committee can take is to 
reauthorize and fund the Esther Martinez Native American 
Languages Preservation Act, which was enacted in 2006 to 
preserve and increase fluency in Native American languages. 
Language shapes everyone's identity, but for Native communities 
there is an urgent need to protect our languages from 
extinction.
    In closing, let me say that we recognize that most 
education policy is decided at the State and local levels. 
However, you in Congress can do a lot to encourage States and 
school districts to adopt curricula that accurately reflect the 
history, culture, and experience of local American Indian 
Tribes. As early as the 1950s, my mother and grandmother would 
visit local schools to counteract inaccurate and misleading 
stereotypes of Indian people. They worked hard to teach as many 
people as they could. More than 50 years later, we are still 
visiting schools to correct inaccurate accounts of our history 
and our culture. Tribal people should not be in the position of 
constantly having to undo misperceptions caused in part by 
flawed policies.
    In California, Tribes have worked for more than a decade to 
encourage the adoption of curriculum that teaches local 
children about the history and culture of the local Tribes. We 
still have more work to do, but we believe accurate and 
appropriate lessons would go a long way toward helping to undo 
stereotypes and misunderstandings.
    Indian Tribes and Indian people are part of America's past, 
present and future. We look for Congress's collaboration into 
the future so that our image and identity is strong and vibrant 
for the next seven generations. And as my mother and 
grandmother would always tell me, never forget who you are and 
where you came from.
    Thank you very much.
    [The prepared statement of Ms. Valbuena follows:]

  Prepared Statement of Lynn Valbuena, Chairwoman, Tribal Alliance of 
                        Sovereign Indian Nations

    Good afternoon, Chairman Akaka, Vice Chairman Barrasso and 
distinguished Members of the Committee.
    I am Lynn Valbuena, Chairwoman of the Tribal Alliance of Sovereign 
Indian Nations, or TASIN as we are more commonly referred to. I am also 
the former Vice Chairwoman of the San Manuel Band of Mission Indians 
near San Bernardino, California and previously served as secretary of 
the National Indian Gaming Association; I currently serve as the 
secretary for the Smithsonian Institution's National Museum of the 
American Indian and as a Trustee for the Autry National Center in Los 
Angeles.
    Thank you for holding this hearing.
    TASIN is an intergovernmental association of nine federally 
recognized tribal governments throughout Southern California. Our 
members include the Agua Caliente Band of Cahuilla Indians, the 
Augustine Band of Cahuilla Indians, the Cahuilla Band of Indians, the 
Chemehuevi Indian Tribe, the Pechanga Band of Luiseno Indians, the San 
Manuel Band of Mission Indians, the Santa Rosa Band of Mission Indians, 
the Santa Ynez Band of Chumash Indians, and the Soboba Band of Luiseno 
Indians.
    Our purpose is to protect and promote the tribal sovereign 
government rights, the cultural identity and interests of federally 
recognized tribes located within the Federal Central Judicial District 
within the State of California.
    TASIN and member tribes have been at the forefront of almost every 
major public policy issue in California affecting tribal governments, 
either sponsoring or helping to shape legislation regarding Indian 
Child Welfare, the Indian Gaming Special Distribution Fund, sacred 
sites protection, Internet Gaming, protection of tribal gaming 
exclusivity, off-reservation gaming, and the Revenue Sharing Trust Fund 
for non-gaming tribes.
    I thank and commend you, Chairman Akaka, members of the Committee 
and senior staff for your diligence in reaching out to Indian Country 
throughout the last year. We hope future committees will continue the 
regular and ongoing dialogue with Indian Country that you have helped 
to initiate.
    Our Native culture is central to the identity of American Indians. 
Our traditions, our belief systems, our inherent rights--our way of 
life--have all been handed down by our forefathers generation by 
generation.
    My daughter teaches my grandchildren the stories and traditions I 
taught her as a child, just like my mother, who learned them from my 
grandmother, taught them to me.
    My mother, Pauline Murillo, intuitively understood and would often 
talk about Indian people living in two worlds. She and my grandmother 
instilled in us kids the importance of educating the public and non-
Indian people about who we are as tribes and tribal people.
    In fact, my mother even wrote a book about her experiences of 
living on the San Manuel Reservation while also being an active citizen 
in the non-Indian world.
    Growing up, my mother and other tribal children were teased and 
harassed by the non-Indian kids. They tolerated and endured a lot of 
bigotry and isolation, just like so many of our tribal elders across 
the country, because of stereotypes and inaccuracies.
    But the foundation of the modern rights and identity of sovereign 
nations is our unique legacy of traditions, language, values, and 
beliefs, tested throughout history that shapes and informs every tribal 
member.
    It is for this reason, and despite past misguided federal policies, 
hostilities, Hollywood stereotypes, and hardships suffered by American 
Indians, that the self-identity of America's indigenous people remains 
strong and vibrant.
    We know who we are: the descendants of the original people who 
governed this land now called America. We are also her stewards.
    For much of the 20th century, the stereotype of a Native person was 
that of a feather bonnet-wearing Indian living in a tepee. I remember 
growing up and being asked about my tepee and if I put on my costume 
when I get home back on the reservation. But tepees, of course, were 
not indigenous to Southern California.
    Another heinous stereotype, which sadly continues to be perpetuated 
today, is that of the drunken Indian. Sadly, most of the public 
believes the stereotype. In 2010, TASIN conducted a statewide public 
opinion poll of California voters and found that 60 percent of 
respondents believe Indians living on a reservation have a high degree 
of alcoholism and substance abuse.
    Obviously we recognize the rate of alcoholism and substance abuse 
among Native Americans is higher than the general population, but at 
the same time a 2007 study by the Substance Abuse & Mental Health 
Services Administration found that fewer American Indians and Alaska 
Natives used alcohol in the past year as compared to other racial 
groups.
    Yet, the perception continues to hold, and this has deep 
consequences for our youth since their self-worth has such a bearing on 
their long-term success in life. Research has concluded that negative 
stereotypes foster feelings of inferiority, shame, and low self-esteem 
among Native youth. \1\ Low self-esteem, which has been linked to 
academic performance and social adjustment, has also been identified as 
a factor in Native youth's historically low high school graduation 
rates \2\ and high suicide and homicide rates. \3\
---------------------------------------------------------------------------
    \1\ Pewewardy, 2004.
    \2\ Payment, 2011.
    \3\ Harjo, 1990; Young, 1993; Centers for Disease Control and 
Prevention, 2012
---------------------------------------------------------------------------
    I submit to you that history demands that we define ourselves to 
the non-Native world; otherwise these and other stereotypes will take 
hold and redefine our children and grandchildren.
    Clearly, IGRA's policy goal of promoting tribal economic 
development, self-sufficiency, and strong tribal governments through 
Indian Gaming has brought unprecedented economic opportunities to 
tribes and tribal people. But it has also thrust Indian tribes and 
Indian people into a very bright spotlight, raising awareness and 
creating greater interest into our way of life that for generations has 
been deeply cherished and held private.
    To a large extent, IGRA's success has resulted in a new stereotype: 
that every Indian is wealthy and owns a casino. In fact, our public 
opinion survey from 2010 found that 53 percent of Californians think 
Indian casinos have made Indian people rich.
    Naturally, this perception breeds envy and results in a backlash 
toward tribes, which creates new challenges with real policy and human 
consequences.
    In 2003, for example, Arnold Schwarzenegger ran a political ad 
saying he would force tribes to ``pay their fair share.'' He exploited 
the commonly misunderstood circumstance that tribal government gaming 
operations don't pay taxes. Of course he ignored the long-held 
principle that governments don't tax other governments.
    And when Schwarzenegger became governor, he demanded tribes 
renegotiate their compacts and make payments into the State's General 
Fund in order to help solve the state's budget crises.
    The result of this misguided policy was that the 9th Circuit Court 
of Appeals last year ruled Schwarzenegger negotiated in bad-faith by 
effectively demanding an illegal tax.
    Even many elected officials--the people charged with policymaking--
are also uninformed about our rights and who we are.
    This is one of the reasons TASIN has partnered with the League of 
California Cities, a coalition of 478 cities, to help educate elected 
officials at the local government level about tribal governments. Each 
year, we participate in their annual conference and each year without 
fail, local officials will come by and ask us to build a casino in 
their cities. The first year we participated, several elected officials 
asked, ``why are the Indians at our conference, what's the purpose? Are 
you trying to build more casinos?'' Even today, some just don't 
understand that we have governmental rights and responsibilities.
    This is why several TASIN tribes every year undertake educational 
campaigns to bring awareness to people throughout our region about our 
rights, history, and cultural heritage. Every year, my tribe and other 
tribal governments air and place ads in regional media to tell our 
story in our way.
    We recognize that we bear the responsibility of educating non-
Native people about ourselves, but Congress and this Committee can and 
should take a couple of simple steps to help us, particularly since 
past federal policies have contributed to and perpetuated the 
stereotypes that exist today.
    It is very fitting that this hearing is held this month--November. 
November, as you are aware, is National American Indian Heritage Month.
    Before it was Native American Week, which was held in November, 
then September, then the first week of December. My point is: not until 
1995 have presidents issued annual proclamations consistently 
designating November as National American Indian Heritage Month.
    And we deeply appreciate that President Obama signed into law the 
Native American Heritage Day Act of 2009, declaring the Friday after 
Thanksgiving as Native American Heritage Day. This was an important and 
long overdue acknowledgment by Congress, but we all need to do more to 
raise awareness of this important month and day.
    If you were to ask most Americans what the day after Thanksgiving 
is called, I would venture to guess that 99.9 percent would say its 
``Black Friday'' instead of Native American Heritage Day. We all need 
to do more to raise awareness about this important day if we expect it 
to become a meaningful and relevant American tradition like Martin 
Luther King, Jr. Day, Labor Day, or even Columbus Day.
    Another important step this committee can take is to reauthorize 
and fund the Esther Martinez Native American Languages Preservation 
Act, which was enacted in 2006 to preserve and increase fluency in 
Native American languages. Language shapes everyone's identity, but for 
Native communities there is an urgent need to protect our languages 
from extinction.
    In closing, let me say that we recognize that most education policy 
is decided at the state and local levels; however, you and Congress can 
do a lot to encourage states and school districts to adopt curricula 
that accurately reflect the history, culture, and experience of local 
American Indian tribes.
    As early as the 1950s my mother and grandmother would visit local 
schools to counteract inaccurate and misleading stereotypes of Indian 
people. They worked hard to teach as many people as they could. More 
than 50 years later, we are still visiting schools to correct 
inaccurate accounts of our history and our culture. Tribal people 
should not be in the position of constantly having to undo 
misperceptions caused in part by flawed policies.
    In California, tribes have worked for more than a decade to 
encourage the adoption of curriculum that teaches local children about 
the history and culture of the local tribes.
    We still have more work to do, but we believe accurate and 
appropriate lessons would go a long ways toward helping to undo 
stereotypes and misunderstanding.
    Indian tribes and Indian people are part of America's past, 
present, and its future. We look for Congress's collaboration into the 
future so that our image and identity is strong and vibrant for the 
next seven generations.
    Thank you.

    The Chairman. Thank you very much for your testimony.
    Mr. Lee, please proceed with your testimony.

         STATEMENT OF ANDREW J. LEE, TRUSTEE, NATIONAL 
          MUSEUM OF THE AMERICAN INDIAN, SMITHSONIAN 
              INSTITUTION; EXECUTIVE, AETNA, INC.

    Mr. Lee. Good afternoon, Mr. Chairman, members of the 
Committee.
    My name is Andrew Lee. My Seneca name is Ono-dah-Geyh. I am 
a trustee of the National Museum of the American Indian, and a 
member of several boards serving Indian Country. I currently 
work at Aetna, where I am president of one of the company's new 
businesses. I also have the honor of serving as a Young Global 
Leader of the World Economic Forum.
    As a mixed-race Native, it took me many years to view my 
background and heritage as assets that allowed me to walk 
comfortably in many worlds. When I moved to New York City in 
the mid-1990s, it became clear that I could help shape how 
Indians are viewed. One day I asked a friendly-looking man if 
he had seen an article about American Indians in that day's 
newspaper. He had. And then he added, but I think they got it 
right in South America by wiping out the indigenous population.
    I said nothing and walked way. But after that, I went out 
of my way to spend time with him. We talked about Wall Street, 
history and the arts. And I never brought up that repulsive 
comment. Over time, I introduced him to Indian sovereignty. 
Ultimately, he became an unlikely ally.
    For me, this experience underscored the need to build 
bridges of understanding across communities, cultures and 
sectors. Most importantly, it taught me that I can make a 
difference. My career has spanned philanthropy, American Indian 
affairs and now business. Across this diversity, I have 
remained committed to building bridges, whether it is 
encouraging mainstream philanthropy to pay attention to Native 
America, helping Tribes share best practices or finding ways 
for corporations to work with Native populations.
    Although I no longer work on Indian issues as my day job, I 
stay very involved through volunteerism and board service.
    Reflecting on my journey, I would like to offer three ideas 
about image and identity. First, our ability to reclaim our 
image and identity is inextricably tied to our continued 
support for the policy of self-determination. Extensive 
research concludes that successful Indian nations assert the 
right to govern themselves. And they exercise that right by 
building capable and culturally-appropriate institutions of 
self-governance.
    Astonishing success is possible when Indian nations put 
themselves in the driver's seat for decisionmaking on 
everything from social service provision to natural resource 
management. The right way forward is to sustain and advance 
this policy of self-determination, enabling Tribes to define 
themselves and govern themselves to brighter futures.
    Second, we should showcase the growing number of success 
stories in contemporary Native America. Indian nations are at 
the forefront of innovation, like the Winnebago Tribe, which 
turned around its economy, plagued by 60 percent unemployment, 
by launching a diversified Tribal enterprise. Like the Tohono 
O'odham Nation, building a skilled nursing facility that is now 
a national model. Or the Zuni, building the first-ever eagle 
sanctuary operated by Indians. These success stories paint a 
picture of Native America that is very different from what we 
see on television or learn from textbooks.
    Finally, we need to accelerate the ascension of Natives 
into positions of influence in all aspects of society. No 
nation, Native or non-Native, can be successful over the long 
term without its best and brightest participating in public 
service. Too often, however, talent leaves reservations.
    Indian nations can reverse this trend by creating 
environments that nurture talent, where people with good ideas 
are supported by a well-functioning government. Tribal 
governments can help by engaging their off-reservation citizens 
in Tribal affairs, training their elected officials and 
teaching Tribal civics.
    In this inter-connected world, we also need more Natives to 
take on positions of leadership in business, non-Native 
government and civil society. I look forward to seeing more 
Natives among the ranks of Rhodes scholars, U.S. Ambassadors, 
CEOs and Nobel Prize winners. This is possible if we set our 
sights high, ensure youth know what opportunities exist and 
work with diverse stakeholders to make sure they partner with 
Indian Country, not only because it is the right thing to do 
but because it leads to better outcomes from everyone.
    Mr. Chairman, thank you for bringing this concept of seven 
generations to the floor. I believe we can and will reclaim a 
positive American Indian image and identity for the next seven 
generations. But it requires that we all remain steadfast in 
our support for self-determination, tell the many stories of 
Tribal success and cultivate Native leadership into positions 
of influence within and beyond Indian Country. If we do these 
things, we will do our part to restore Indian nations to their 
rightful place of honor among the world's great nations.
    Thank you for this opportunity.
    [The prepared statement of Mr. Lee follows:]

 Prepared Statement of Andrew J. Lee, Trustee, National Museum of the 
    American Indian, Smithsonian Institution; Executive, Aetna, Inc.

Introduction
    Good afternoon Mr. Chairman, Mr. Vice-Chairman, and members of the 
Committee. Thank you for the opportunity to appear here today. My name 
is Andrew Lee; my Seneca Indian name is Ono-dah-geyh. \1\ I have the 
pleasure of serving as a trustee of the Smithsonian's National Museum 
of the American Indian, as well as numerous other boards and advisory 
councils in service to Indian Country. Currently, I am an executive at 
Aetna Inc., where I am president of one of Aetna's new non-insurance 
businesses, serve on the board of directors for the Aetna Foundation, 
and lead an employee resource group dedicated to American Indian 
issues. I also have the honor of serving as a Young Global Leader of 
the World Economic Forum, which each year selects up to 200 individuals 
under age 40 from around the world who share a commitment to shaping 
the global future.
---------------------------------------------------------------------------
    \1\ This testimony and the opinions expressed at the November 29 
hearing are solely those of Andrew J. Lee, and do not reflect the 
opinions of the Smithsonian Institution, Aetna Inc., the World Economic 
Forum, or any other organization or affiliation.
---------------------------------------------------------------------------
My Personal and Professional Journey
    As a mixed heritage Native, it took me many years to become 
comfortable with my identity. As a boy, I thought being half-Seneca was 
a convenient novelty. To my non-Indian friends, it meant I was 
naturally good at shooting arrows, playing lacrosse, and connecting 
with the outdoors. By high school, I did not think about or talk very 
much about my heritage because I wanted to be just like all the other 
non-Native kids. In college, my attitude changed when I met a professor 
who challenged me to imagine ways I could give back to my community. I 
began to think of my background and heritage as assets, and I started 
to develop a sense of responsibility to make a positive difference in 
the lives of others.
    This responsibility became much clearer after I finished graduate 
school and moved to New York City to start my career. One day, I struck 
up a conversation with a friendly enough looking man and asked him if 
he had seen an interesting article about American Indians in that day's 
newspaper. He responded yes, he had seen the article. Then he added, 
but I think they got it right in South America by wiping out the 
indigenous population. Stunned by what I heard, I decided it was not a 
good idea to respond in the way I wanted. Instead, I said nothing and 
walked away.
    The next morning, I decided I needed to get to know this person. So 
virtually every day for two years, I went out of my way to spend time 
with him. I discovered that he was a highly educated and widely 
respected individual. We talked about Wall Street, politics, history, 
and the arts--and I never brought up the repulsive remark he made. Over 
time, I introduced him to the concepts of Indian sovereignty and self-
determination. Though I never would have imagined it possible, he 
eventually came to support the dignity, strengths, and diversity of 
this country's first peoples. When he died a few years ago, we lost an 
unlikely ally.
    This experience in the mid-1990s showed me the importance of 
changing attitudes, the value of exchanging knowledge, and the need for 
individuals who are able--and willing--to build bridges of 
understanding across communities, cultures, and sectors. Perhaps most 
importantly, this experience taught me that I can help build those 
bridges.
    My career has also been an amalgamation of experiences, with some 
unlikely twists. I had an incredible opportunity to work in the field 
of American Indian affairs for the better part of a decade, serving as 
the executive director of the Harvard Project on American Indian 
Economic Development, where I was the founding director of the Honoring 
Nations tribal governance awards program. After that, nearly eight 
years ago, I decided to enter the business world, motivated in part by 
the fact there are so few Indians working in positions of leadership in 
corporate America and wanting to push myself with a completely new 
professional experience. Importantly, I have found I can build bridges 
in my own career by working for a world class Fortune 100 company while 
staying very involved in Indian affairs through volunteerism and board 
service. I have the privilege, for example, to serve as a trustee of 
the National Museum of the American Indian, which tells the real story 
of Native peoples in the Western Hemisphere, educating and inspiring 
millions of visitors from America and around the globe.

Ideas for Reclaiming Image and Identity
    Reflecting on my personal and professional journey, I would like to 
offer three ideas for how we can positively shape our image and 
identity for the next seven generations.
    First, our ability to reclaim our image and identity is 
inextricably tied to our continued support for the policy of self-
determination. Nearly two decades of research by my former colleagues 
at the Harvard Project on American Indian Economic Development points 
to a fundamental conclusion: Successful Indian nations assert the right 
to govern themselves, and they exercise that right effectively by 
building capable and culturally appropriate institutions of self-
governance. Astonishing success is possible when tribes seize control 
of their own futures, spend less time blaming `others' for their 
problems and instead put themselves in the driver's seat for 
decisionmaking--on everything from running their health care to 
building and managing their own law enforcement systems, and from 
creating their own culturally relevant, yet stringent, standards for 
educational achievement to managing the natural resources on their 
lands in a responsible manner that is informed by tradition.
    The Federal Government can play an important role in helping Indian 
nations rise to their full potential by sustaining self-determination 
as the cornerstone of U.S. Indian policy. Clearly, a continuing view of 
Indian nations merely as wards of the Federal Government is untenable. 
The Federal Government can provide expanded opportunities for tribes to 
exercise their sovereignty in fresh ways, offer even greater 
flexibility in how funding is used within the confines of mutual 
accountability, and support tribal efforts to reform their 
constitutions and governments in culturally appropriate ways. It is 
telling that the policy of self-determination is the only policy 
approach in over a century that has led to meaningful improvements in 
the material health and welfare of Indian Country. The right way 
forward is to stay the course on self-determination, facilitating 
Indian nations' ability to govern themselves to brighter futures.
    Second, we have a collective responsibility to showcase the 
incredible stories of tribal success in this era of self-determination. 
Throughout history, American Indians have made enormous contributions 
to humanity. The Iroquois Confederacy was an important influence in the 
development of the Constitution of the United States of America. 
Sacajawea's incredible leadership was instrumental to the success of 
the Lewis and Clark expedition. And Natives pioneered countless 
agricultural, medical, architectural, and other innovations on which 
the rest of the world now depends. As one of my distinguished 
colleagues in the field of Indian affairs is fond of saying, when it 
comes to Native America, ``the truth is much more interesting than the 
lies.'' Yet these truths are rarely communicated to the next 
generation.
    Too often, we fail to pay sufficient attention to the impressive 
success stories of contemporary Native America, which are becoming 
easier to find. That needs to change. As we have learned from Harvard's 
Honoring Nations tribal governance awards program, tribes are at the 
forefront of innovation, doing lots of small and big things that 
contribute to a better future for Native people and the world more 
generally: \2\
---------------------------------------------------------------------------
    \2\ Summaries provided by the Harvard Project on American Indian 
Economic Development at the John F. Kennedy School of Government. For 
more information, visit www.hpaied.org.

  <bullet> Chartered under the laws of the Winnebago Tribe and wholly 
        owned by the Tribe, Ho-Chunk, Inc. was launched in 1994 to 
        diversify the Tribe's business interests while maintaining a 
        separation between business and tribal government. The general 
        purpose company promotes economic self-sufficiency and creates 
        jobs through its actively managed enterprises, joint ventures, 
        and passive investments, which include hotels, convenience 
        stores, websites, and an order fulfillment center. Today, Ho-
        Chunk, Inc. employs more than 1,400 people and has 24 
        businesses with operations in ten states and four foreign 
---------------------------------------------------------------------------
        countries.

  <bullet> The Lummi Indian nation established the Lummi Tribal Sewer 
        and Water District in 1983 to ensure the Nation's role in the 
        provision of safe drinking water and discharge of clean 
        wastewater across and beyond its reservation, located 100 miles 
        north of Seattle. The District's managerial, financial, and 
        technical competence--emerging at a time when the Lummi Nation 
        confronted serious challenges to its jurisdiction over non-
        tribally owned lands within the reservation--has enhanced 
        tribal sovereignty while providing critical infrastructure 
        services to the reservation's 5,000+ Native and non-Native 
        residents.

  <bullet> The Red Lake Band of Chippewa Indians have long depended on 
        the fish that live in Red Lake, the sixth largest body of 
        freshwater in the United States, located in Minnesota. Both the 
        waters and the walleye of the lake are central to the Red Lake 
        Band people, its history, economy, and culture. But by the mid-
        1990s, the walleye population had collapsed from over-fishing. 
        Taking drastic but necessary action, the Band negotiated a 
        consensus arrangement with local fisherman and state and 
        federal officials to ban fishing in the lake. Over a ten-year 
        period the fish recovered at an astonishing rate. The tribally 
        led Red Lake Recovery Project now determines when, how, and who 
        can fish the historic waters from which the Band claims its 
        name.

  <bullet> For decades Tohono O'odham elders in need of skilled nursing 
        had to move far away from family and friends to receive care, 
        or stay home and forgo long term care services. However, with 
        the opening of the Archie Hendricks, Sr. Skilled Nursing 
        Facility, O'odham elders can now remain in the community. 
        Combining today's latest technologies and world-class clinical 
        care with traditional values, the nursing home has become one 
        of the finest elder care facilities anywhere in the United 
        States.

  <bullet> The Confederated Tribes of the Umatilla Indian Reservation 
        (CTUIR) have become one of the largest employers in Eastern 
        Oregon, and along with economic success came the return of 
        tribal citizens. A lack of transportation options, however, 
        prevented tribal citizens from taking advantage of local 
        employment opportunities. In 2001, CTUIR Public Transit was 
        started to address the need for public transportation. The 
        comprehensive system includes both a free bus and a taxi 
        voucher service, encompassing a large service area within and 
        beyond the reservation boundaries, which is interconnected with 
        other non-tribal regional systems. Remarkably, the transit 
        system has helped alleviate poverty, promoted stronger inter-
        governmental relations, and facilitated cross-cultural 
        understanding as Native and non-Native ride together.

  <bullet> Created in 1999, the Zuni Eagle Sanctuary is the first eagle 
        sanctuary owned and operated by Native Americans as well as the 
        first aviary constructed for the purpose of cultural 
        preservation. Combining both functional aspects of eagle care 
        with an aesthetic that reflects the natural surroundings of 
        Zuni, the Sanctuary is home to more than two dozen eagles that 
        otherwise would have been destroyed. Successfully meeting the 
        Zuni's demand for molted eagle feathers that are used in 
        religious and cultural ceremonies, the Sanctuary is also a 
        model of intergovernmental cooperation between a tribal 
        government and federal agency.

    These and countless other stories of Native ingenuity and success 
are powerful. They give tribal decision makers fresh ideas and 
practical knowledge about how to create sustainable economies, improve 
service delivery, and manage vital resources. These stories also raise 
the bar for tribal government performance and shape dreams of what is 
possible.
    At the same time, these success stories present a picture of Native 
America that is very different from what we see on television, and 
different from what children learn in social studies. These are stories 
that need to be told because they help restore Indian nations to their 
rightful place of honor among the world's nations.
    And finally, we need to accelerate the ascension of Natives into 
positions of influence in all areas of society--starting with tribal 
governments and extending beyond Indian Country. While there are many 
reasons why Natives have faced, and continue to face, long odds 
bringing individual achievement to scale, I believe we need to do 
better.
    One area that needs our attention is tribal governance. No nation--
Native or non-Native--can be successful over the long term without some 
of its best and brightest participating in public service. While there 
are a growing number of tribes developing, attracting, and retaining 
leadership from within their own populations, the unfortunate presence 
of nepotism, cronyism, and rent-seeking behavior persists in far too 
many places. Indian nations can stop the flood of talent leaving their 
reservations. The challenge for tribal leaders and, indeed, communities 
themselves is to create an environment where talent can be nurtured, 
where hard work is expected and appreciated, and where people with good 
ideas are encouraged and supported. To be sure, creating this kind of 
environment is not easy--but it is necessary.
    The good news is that in this era of self-determination, there are 
many things Indian nations can do. I have been inspired by 
interventions made by forward-thinking tribes, such as investing in 
youth leadership programs that give young people a formal voice in 
tribal affairs, finding ways to engage off-reservation citizenry to 
participate in tribal government, developing formal training programs 
for tribal legislators and candidates so they are prepared to govern, 
and ensuring children on the reservation and in surrounding communities 
are taught tribal civics.
    I would also submit that in an increasingly complex and 
interconnected world, we need more Natives to take on positions of 
leadership in business, non-Native government, and civil society. This 
does not conflict with the need to attract the best and brightest to 
serve in tribal government. Rather, it means we need to expand 
significantly the pool of available talent. Both the Federal Government 
and the tribes can facilitate this through smart investments in 
education, training, and enrichment programs. I look forward to the day 
that Natives are appropriately represented in institutions and programs 
with national and global significance. That we see more Native 
participation among the ranks of Rhodes scholars, MacArthur fellows, 
Young Global Leaders, White House Fellows, and Nobel prize winners. 
That more Native kids and young professionals set their sights on 
becoming U.S. ambassadors, serving as CEOs of global companies, 
becoming board members of major foundations, and launching start-ups. 
We need to set our sights high, make sure our young people know what 
opportunities exist, and work with diverse stakeholders in business, 
government, and civil society to make sure they are partnering with 
Indian Country not only because it is the right thing to do, but also 
because it leads to better outcomes for everyone.

Conclusion
    Like most Haudenosaunee, I was taught at an early age that before 
making important decisions, we have a responsibility to reflect on the 
wisdom of seven generations behind us, and to consider the impact of 
our decisions seven generations ahead.
    Mr. Chairman, thank you for bringing this principle of seven 
generations to the fore. When it comes to image and identity, there is 
a lot at stake for Indian people. My own experiences working with 
Indians and non-Indians make me optimistic we can build new bridges of 
understanding. And a big part of what it'll take to reclaim our image 
and identity in a very positive way for the next seven generations is 
to stay steadfast in our support for self-determination, shine a bright 
spotlight on tribal success stories, and cultivate and accelerate 
Native leadership into positions of influence inside and beyond Indian 
Country.
    Thank you again for the opportunity to testify.

    The Chairman. Thank you very much, Mr. Lee, for your 
testimony.
    Mr. Titla, will you please proceed with your testimony?

          STATEMENT OF MARY KIM TITLA, COMMUNICATIONS 
  OFFICER, SAN CARLOS UNIFIED SCHOOL DISTRICT; BOARD MEMBER, 
             NATIONAL INDIAN EDUCATION ASSOCIATION

    Ms. Titla. Chairman Akaka and members of the Committee, 
thank you for this opportunity to speak with you today. Thank 
you for all you do for Indian Country.
    My name is Mary Kim Titla. I am a member of the San Carlos 
Apache Tribe in Arizona. I was born and raised on the San 
Carlos Apache Reservation.
    Currently I work as the Communications Officer for the San 
Carlos Unified School District. I am also a former TV news 
reporter, working for NBC News in Tucson and Phoenix. I am a 
freelance writer, I serve as Secretary for the Board of 
Trustees for United National Indian Tribal Youth, also known as 
UNITY. And I am on the board for the National Indian Education 
Association. I am a proud descendant of three Apache chiefs, an 
Apache Scout, military veterans, a former Tribal councilwoman 
and a master wood carver and schoolteacher.
    Now I would like to introduce myself in Apache. Dagot'ee. 
[Greeting and introduction in Native language.]
    Like many on my reservation, I am not a fluent Apache 
speaker. Less than 20 percent of my people speak the language 
fluently. The Apache language coordinator in our school 
district recently informed me that only one student in our 
elementary school of more than 900 students can speak the 
language. That is only one student.
    Our language is the heart of Native people. Our elders say 
without the heart our people will cease to exist. Without the 
heart, there is no image, no identity. We need the heart to 
keep our songs, our ceremonies and our culture alive. The next 
seven generations are counting on us, all of us, lawmakers, 
educators, Tribal leaders, activists, parents and especially 
our elders, to work together, so that we do not lose the heart 
of our people.
    My ancestors, including the three chiefs I descended from, 
fought hard and sacrificed greatly so that we could be here 
today. I am doing my part by taking an Apache language class at 
the local community college. I hope to one day say, if I can 
learn the language, you can too. Our language teachers are 
working very hard to make sure our language never dies. But 
there are two few teachers, and the pressure to do NCLB 
academics is effectively minimizing the language and the arts.
    Our children are eager to learn, and many are like a 
sponge, ready to soak in everything that is Native. However, 
according to the 2011 National Indian Education Study, almost 
half of Native youth in fourth grade, in 12 States, including 
my great State of Arizona, know little or nothing of their 
Tribe's history. And it gets worse. Nearly two-thirds of Native 
eighth graders know little or nothing of their Tribe's history 
and heritage.
    The same two-thirds are also unaware or know little of the 
issues that are important to Indian Country. I don't know about 
you, but that is very alarming to me.
    Fortunately, in our school district, we are working hard to 
change that by teaching Apache history. I know all too well the 
lack of positive self-image. As a child, I experienced two 
events that are forever etched in my mind. When I first went to 
public school in our nearby town, we took a field trip through 
the reservation. One of the non-Indian students in my class 
pointed to an Indian home and laughed.
    During the 1960s, when I first started public school, many 
of the Indian homes did not have plumbing or electricity. And 
when I was a teenager, my friends and I decided to go to a 
dance in another nearby town. At this dance, there were mainly 
non-Indians. As we drove around the building before even 
setting foot inside the dance, someone outside, a non-Indian, 
yelled ``dirty Indians.'` My friends shouted profanities and we 
drove away. As I said, these are memories that are etched in my 
mind.
    Our schools and teachers desperately need your help. We 
need more technology infrastructure and we need more Native 
teachers. My father was one of a handful of Apache teachers 
who, more than 20 years ago, helped pave the way and set an 
example for other Apache teachers. Today, there are 15 Apache 
teachers working in our school district, and next month, 
another 10 will be certified and will graduate and will teach 
in our schools. Another six Apaches are in administrative 
positions.
    San Carlos Apaches are taking ownership of their education 
in a big way. This helps to build image and identity for our 
young people. They need role models, so they can not only 
embrace who they are but also realize their dreams. A future 
role model is a Native American woman in Congress.
    We also have wonderful organizations like UNITY, United 
National Indian Tribal Youth, Inc., helping to mold and inspire 
our young Native people. I don't where I would be today if it 
wasn't for the UNITY organization. Though this organization has 
been around for more than 30 years and has affected thousands 
of young people's lives, it may close its doors at the end of 
December. This organization focuses on the social, spiritual, 
physical and mental well-being of Native youth. Unfortunately, 
as I mentioned, this on-profit may have to close its doors at 
the end of December.
    I bought one Power Ball ticket in Arizona. I haven't 
checked it. I am really hoping that I won, so that I can give 
some money to UNITY. There was someone who won from Arizona, 
you know.
    [Laughter.]
    Ms. Titla. In order for our children to truly reclaim their 
image and identity, Tribes, parents and community members must 
have a say in shaping and controlling what their children learn 
in school. Earlier this year, our school district received 
unprecedented support from the San Carlos Apache Tribal 
Council, which provided incentives for students who passed the 
AIMS test, Arizona's instrument to measure standards. More 
importantly, Tribal leaders are giving their time and talking 
personally with students at the schools.
    Indian Country needs strong, concerted and sustained 
support to pass the Native Class Act, culture, language and 
access for success in schools. While not a fix-all, the Native 
Class Act does address many of the systemic problems in Native 
education, and includes strengthening Tribal control of 
education, preserves and revitalizes Native languages and 
encourages Tribal-State partnerships.
    We must also reaffirm and acknowledge the Department of 
Education's Federal trust responsibility for American Indian 
and Alaska Native students. The President issued his memorandum 
on Executive Order 13175, Consultation and Coordination with 
Indian Tribal Governments, in 2009. The Department of Education 
has yet to release its consultation policy.
    As a result, Tribes are still struggling to be at the 
table, both with the Department of Education and States, in 
developing meaningful education policy for Native students. We 
are rapidly moving through the 21st century. Our children do 
not know or comprehend what it means to be American Indian in 
this modern age. We must work together, with the support of 
lawmakers, if our next seven generations are to reclaim their 
heritage and capture the vision of American Indians in the 22nd 
century.
    I have a vested interest. I am the mother of an 11th grader 
and the grandmother of three grandchildren, who are counting on 
me to take a stand on Indian education issues. Today I take 
this stand for them and for all Native children. Ahiyei. Thank 
you and God bless you. When appropriate, I can answer any 
questions.
    [The prepared statement of Ms. Titla follows:]

  Prepared Statement of Mary Kim Titla, Communication's Officer, San 
Carlos Unified School District; Board Member, National Indian Education 

                              Association
Introduction
    Chairman Akaka, Vice-Chairman Barrasso, and Members of the 
Committee:
    Dagot'ee. Thank you all for the work you do on behalf of Native 
people and thank you for this opportunity to address you about the 
future of our people. My name is Mary Kim Titla. I'm a member of the 
San Carlos Apache Tribe in Arizona. I was born and raised on the San 
Carlos Apache reservation. Currently I work as the Communications 
Officer for the San Carlos Unified School District. Last year, thanks 
to the iLead program at Arizona State University, I had the privilege 
of interning as Principal at San Carlos Secondary School where I 
learned first-hand the challenges facing educators. I'm also a 
freelance writer and former TV News Reporter. I serve as Secretary for 
the Board of Trustees for United National Indian Tribal Youth, Inc. I'm 
a board member for the National Indian Education Association and a Co-
Lead Advisor for the San Carlos Apache Youth Council. I'm a proud 
descendant of three Apache chiefs, an Apache Scout, military veterans, 
a former tribal councilwoman and a Master wood carver and 
schoolteacher.

Embracing Identity
    How can we, as Native people, reclaim our image and identity for 
the next Seven Generations? First, our Native children must fully 
embrace who they are. An estimated 93 percent of Native children attend 
both urban and rural public schools. The remaining 7 percent attend 
Bureau of Indian Education schools. I'd like to share some alarming 
statistics.
    According to the 2011 National Indian Education Study, which 
involved a survey of Native students in 12 states, including my great 
state of Arizona, only 44 percent of American Indian/Alaska Native 
fourth-graders reported knowing a little or nothing of their tribe or 
group's history. A mere 32 percent of American Indian/Alaska Native 
eighth graders had some knowledge of their Native history, and 32 
percent had some knowledge of their Native traditions and cultures. 
That means two-thirds knew little or nothing of their Native history 
and heritage.
    This lack of knowledge about their identities as members of proud 
and powerful cultures, along with the lack of self-pride, is 
devastating. It is one reason why just three out of every five of our 
American Indian and Alaska Native high schools graduated on time last 
year.
    I know this all too well. My first negative experience surrounding 
image and identity began when I attended public school as a young 
child. I attended a school with non-Indian students in a nearby town. 
During a field trip that required traveling through my reservation, a 
non-Indian student pointed at an Indian home and laughed. Most Indian 
homes in the 1960s, including mine, did not have plumbing or 
electricity. The statement did not make me feel good about myself. When 
I was a teenager, my friends and I decided to attend a dance in another 
nearby town. Mostly non-Indians were at the dance. As we drove around 
the building, a young man shouted ``Dirty Indians!'' My friends reacted 
by shouting profanities. We drove away. Those memories are forever 
etched in my mind. How many Native American children today still live 
in situations that are embarrassing to them or are victims of racism? 
We must continue to work hard to educate the ignorant and put an end to 
racism.
    World-class culturally based education is one way to help Native 
students reclaim their proud image and identity. It is also one of the 
most-important solutions to helping our children and communities 
succeed in a world in which knowledge is economic, social, and 
political power.

Academic Progress
    In order for our Native students to reclaim their image and 
identity, the Federal Government must do everything possible to ensure 
schools serving Native students meet benchmarks for academic progress. 
Many of our schools serving Native students in Arizona are labeled 
failing schools. The failing label should be applied to a system that 
knew the struggles in these communities and did little to intervene in 
a meaningful way until President Barack Obama took office. It is the 
label that should be applied to the level of helpful educational 
research related to American Indians on reservations.
    We must work together to ensure our students stay in school and 
ensure our graduates are equipped with 21st Century skills. This 
includes keeping pace with technological infrastructure to support e-
learning initiatives. The intent of the 2011 National Indian Education 
Study was to address issues, specifically those related to identifying 
practices and methods that raise the academic achievement of American 
Indian/Alaska Native students, and assessing the role of Native 
language and culture in fostering that improvement. Recently, an Apache 
language coordinator in our school district, after conducting an 
assessment, informed me that only one student out of more than 900 
students in our elementary school can speak Apache fluently. A 2007 
survey of San Carlos Apaches shows less than 20 percent of more than 
14,000 tribal members are fluent Apache speakers. Our language is not 
to the point of extinction but at this rate, it's just a matter of 
time.
    Native education is in a state of emergency. Many elders believe 
our language is the glue that holds our culture together. Many believe 
without our language, we will no longer be Apache. We will no longer be 
Indian. Fortunately, we have Apache language teachers who are working 
very hard to make sure our language never dies but there are too few 
language teachers and the pressure to do No Child Left Behind academics 
is effectively minimizing the language and the arts.

Role of Community
    Parents of course play a very important role in helping their 
children with self-image and identity. My parents are the driving force 
behind my desire to prove myself to the world. My parents, Phillip and 
Charlotte Titla, raised me to do my best in school and to aim for the 
stars. They said education is the key to success and the key to 
breaking the cycle of poverty and alcoholism. They stressed ``when you 
go to college'' not ``if you go to college.'' Growing up, I was the 
exception rather than the norm. All five of the Titla children 
graduated from college, with three obtaining Master's degrees but 
that's not the best part of the story. The best part of the story is my 
parents quit their jobs and graduated with my youngest brother from 
Grand Canyon University. My mother went on to become a social worker. 
My father and brother became schoolteachers. That was more than 20 
years ago when only a handful of Apache teachers worked for our school 
district. Today 15 Apache teachers work in our school district and 
another 10 Apaches will be certified to teach next month through the 
iTeach program at Arizona State University. Six Apaches are part of the 
district leadership team. San Carlos Apaches are taking ownership of 
their schools in a big way.
    In order for our children to truly reclaim their image and 
identity, tribes, parents and community members must have a say in 
shaping and controlling what their children learn in school. Earlier 
this year, our school district received unprecedented support from the 
San Carlos Apache Tribal Council who provided incentives for students 
who passed the AIMS (Arizona's Instrument to Measure Standards) test. 
More importantly, tribal leaders are giving their time and are talking 
personally with students at the schools.

Native CLASS Act
    Indian Country needs strong, concerted, and sustained support to 
pass the Native CLASS (Culture, Language and Access for Success in 
Schools) Act in Congress. While not a fix-all, the Native CLASS Act 
does address many of the systemic problems in Native education and 
includes strengthening tribal control of education, preserves and 
revitalizes Native languages and encourages tribal/state partnerships.

Trust Responsibility
    We must also reaffirm and acknowledge the Department of Education's 
federal trust responsibility for American Indian and Alaska Native 
students. The President issued his memorandum on Executive Order 13175, 
Consultation and Coordination with Indian Tribal Governments, in 2009. 
The Department of Education has yet to release its consultation policy. 
As a result, tribes are still struggling to be at the table--both with 
the Department of Education and States--in developing meaningful 
education policy for Native students. The Department must ensure that 
tribes are key stakeholders and that it consults with tribes prior to 
the development of regulations that will affect how Native students and 
schools are funded. We desperately need increased funding for Title VII 
Indian Education, and full funding for Title I and Impact Aid.

Institutional Racism
    While my testimony today focuses on Indian education, I'd also like 
to take this opportunity to stand with employees and visitors at the 
Ariel Rios Federal Building, the Society of American Indian Government 
Employees (SAIGE) and the National Congress of American Indians, who 
have raised objections over six historical murals that are considered 
offensive and stereotype Native Americans. The old western images are 
located in elevator lobbies on upper floors and are visible to 
employees and visitors. While consultation has occurred and a 
recommendation made to leave the murals in place with interpretative 
panels, I join with those who protest the images, on behalf of Native 
children, and ask that they be removed as they create a hostile work 
environment. It's important to teach the next seven generations to 
stand up for what is right.

Conclusion
    We are rapidly moving through the 21st Century. Our children do not 
know or comprehend what it means to be American Indian in this modern 
age. We must work together with the support of lawmakers if our next 
seven generations are to reclaim their heritage and capture the vision 
of American Indians in the 22nd Century. I have a vested interest. I'm 
the mother of an 11th grader and the grandmother of three grandchildren 
who are counting on me to take a stand on Indian education issues. 
Today, I take this stand for them and for all Native children. Ahiyei! 
Thank you and God bless you!

    The Chairman. Thank you. Thank you very much, Ms. Titla.
    Ms. Valbuena, thank you for your testimony. My question to 
you is, how can Tribal leadership empower young people to excel 
while maintaining their identity and culture?
    Ms. Valbuena. I think it is important, and I am speaking 
for my Tribe, we have to teach our children as babies, when 
they are growing up. I know at San Manuel we have our education 
department and our tutoring, and we have our language programs, 
like some of the other Tribes also do.
    So I think at the very beginning, just teaching the kids 
their culture and identity, and keeping them in school. Because 
I know nowadays, with all the technology, from computers to 
everything else that is going on that we didn't have when we 
were their age as children, kids may not be active, whether it 
is in sports at school or other extracurricular, after school. 
So I think we just have to keep on telling our children as they 
grow older and keeping their culture and their identity, and 
teaching them as just young kids. I know that is what we do at 
San Manuel.
    The Chairman. Thank you. There will be time for other 
questions.
    I am going to ask Senator Jon Tester for any questions he 
may have.
    Senator Tester. Yes, first of all, thank you, Mr. Chairman. 
I want to thank the panelists today.
    I could go a lot of different directions, but I think we 
are going to start with education. Mary Kim, you talked about 
the need for more Indian educators. I agree. I think that it 
solve a whole bunch of problems, as to a basis for the 
beginning of an understanding of where you have been.
    The question is, is there, from our level, any 
recommendations on what we can do to encourage the kids that 
are in school right now, I am talking K-12 kids, to go into 
education, to become teachers?
    Ms. Titla. Well, you can visit our schools, for one thing. 
So I would like to invite all of you today to come to the San 
Carlos Apache Reservation to visit our schools, to see all of 
the wonderful things that we are doing. I think our school 
district is serving as a model for the rest of the Country due 
to the number of Native educators who are working in our 
schools. As I said, we have 10 teacher interns, Apaches, who 
will be graduating next month.
    I went through the iLead program last year, through Arizona 
State University. We have two others who went through the same 
program, to be administrators. As I mentioned, we are taking 
ownership of our schools. What we need is more support. We need 
more programs like the iLead program, the iTeach program. We 
hope that more colleges and universities will create programs 
that are similar to that, to allow Native teachers to have the 
kind of support that they need to stay in school and eventually 
return to their communities.
    We have a teacher recently, in fact, my cousin, Leslie Van 
Hernandez, who was named one of ten exemplary teachers in 
Arizona. She is a member of our Tribe, she doesn't work in our 
school district, she works for the Mesa Public Schools. But she 
is a fine example of what our teachers can do. They are doing 
great things. And many of them aren't winning awards, but they 
are doing award-winning work. So we need to recognize our 
teachers.
    We also need to make funding available so that we can 
increase their pay. There are a lot of people who don't go into 
this honorable profession because there simply isn't enough 
money there. They aren't receiving the type of salary that they 
would like. Our teachers deserve to receive increases in their 
salaries. So we need more money for education.
    We also need money for programs, Indian education programs 
like Title VII, Title I, Impact Aid. We need your support. We 
are facing budget cuts, as you know. Our school is in dire 
straits right now. We have to cut programs. And as a result, 
our children suffer.
    So we need your support in all of those areas. Thank you.
    Senator Tester. Absolutely. Thank you.
    You brought up No Child Left Behind and how it has resulted 
in a lot of cutting of the arts. Being a music teacher myself 
in a former life, I can appreciate that comment. NCLB has had a 
lot of things wrong with it.
    We are going to reauthorize or authorize The Elementary 
Secondary Education Act some time in the next Congress, that 
will take the place of a Race to the Top, which took the place 
of NCLB, you get the idea. What would you like, from a Native 
American perspective, what do you think is important? What do 
you think should be in that Act? You can relate it to NCLB if 
you like. What do you think is important and should be 
addressed that would help Native American kids be successful?
    Ms. Titla. Consultation would be good, meaningful 
consultation. We need to be at the table. We have decisions 
that are being made about our children, about our schools. And 
we would like to have a say in that. So the fact that you say 
you are going to do it and don't do it doesn't sit well with 
us. So it would be nice to have meaningful consultation take 
place, and actually sit at the table.
    Senator Tester. Okay, that is very good.
    And I only have time for one more. Andrew, you talked about 
building bridges of understanding. How can we encourage people, 
Native Americans in particular, to do what you did to build 
bridges with folks who may not be supporters of Native 
Americans?
    Mr. Lee. There are two things, Senator. The first is that 
we need more leadership in Tribal government. So my point about 
public service is that we need our best and brightest from 
Indian Country to serve their own governments. That is the 
first task.
    The second task that I mentioned was to put more Indians in 
positions of influence outside of Indian Country or beyond 
Indian Country. Some may say that that is a zero sum game. I 
disagree. I think the real challenge for Tribal leadership and 
elected leaders, for that matter, is to increase the pool of 
available Native talent. That goes to everything from providing 
safe home structures for the youth to making sure that we have 
safe reservations and off-reservation communities. It means we 
set high bars for education, that we incorporate Tribal civics, 
as I had mentioned.
    And I think once you start to do those things, you will see 
a whole new cadre of young Native professionals who are 
increasingly fluent both on the reservations and able to work 
outside of that.
    One of the hopes and dreams that I have is to see a growing 
number of U.S. ambassadors who are Native American. That is 
another area where I think this body could make a big 
difference. We need to encourage more Native professionals and 
our esteemed leaders to take on service like that. That would 
make a huge difference, and again, help restore Indian nations 
to their position of honor.
    Senator Tester. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Tester.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    Like Senator Tester said, there is so much here to talk 
about. And I don't know where to start. But I will start with 
Mr. Lee. You are half Seneca Indian and half white. Okay. 
That's not uncommon. I think part of the education of Americans 
is to understand that. This man on Wall Street who you built a 
bridge to, he didn't understand that you were part Indian, 
obviously, when he made that comment.
    How long over the conversation was it until you brought up 
the fact that you were half Indian?
    Mr. Lee. I would say it was about six months before I even 
started to build that bridge. It took a long time.
    Senator Franken. So this ignorance is, this is a smart man, 
this is a wise man otherwise in other ways, right?
    Mr. Lee. He is a highly, or was, a highly-educated and 
well-respected individual, yes.
    Senator Franken. So we don't have, we have in our Country, 
Ms. Titla, you were talking about the very high percentage of 
Native children who don't know their Tribal history, the 
history of Indians in America. And you kind of wonder. Here we 
are, this is Indian Heritage Month. It is funny, I remember 
when we finally had Black History Month, I don't know, this 
might have been 20, 30 years ago, I would see PSAs all the time 
about Black History.
    I am wondering if any of you have any thoughts about how 
valuable it might be to have public service announcements 
during the month of November on television talking about the 
history of Native peoples in this Country.
    Ms. Titla. It is very important. In our State of Arizona, 
with 22 Tribes, we have PSAs about Hispanic month, we have PSAs 
about Black Heritage Month. I don't see PSAs about --
    Senator Franken. Well, obviously we need education for 
Indian kids and for Native Americans. We also need this 
education for Americans. This is so interesting, when you talk 
about both wanting to have Tribal leaders and nurturing Tribal 
leaders. And you talk about in your written testimony some 
great success stories that have come from sovereignty. You talk 
about Red Lake Reservation where they restored the walleye, 
which is the greatest tasting fish in the world, to Red Lake. 
That was a success. You talk about other successes, and you 
talk about best practices. Buck Jourdain is the chairman there, 
he is a friend of mine, and he is a great leader.
    And you also talk about creating leaders in, well, you went 
to Wall Street. And in all spheres of life. I was in Pine Ridge 
a couple of years ago and met a group of kids. There was one 
kid who was like 14, 15 years old who was kind of the 
ringleader of this group. They had me on, asking them what they 
wanted to do. He said, I want to be a drug dealer. He didn't, 
he was pulling my leg. Then I started talking to him, and I 
noticed that he was really funny. I used to be in that 
business, and I recognize talent. This kid was funny.
    I must have spent a half an hour trying to convince him 
that he could do that, that he could be a comedian, that he 
could go to Chicago. I said, go to Chicago, get trained at 
Second City, you would be great. There is 85 percent 
unemployment on Pine Ridge. This kid could not conceive of the 
idea that that pathway was open to him.
    Believe me, there are a lot of people who have succeeded in 
comedy who are a lot less funny than this kid.
    [Laughter.]
    Senator Franken. I just know that this is a problem about 
the pride of your heritage, where that ties in to having self-
esteem and confidence and knowing that possibilities are open 
to you. And that is something that we just have to grapple with 
in so many different ways. I thank you for your testimony. I 
wanted to be here for all of this and continue this 
conversation. Because you talk about sovereignty and how 
important that is. And I know it is, I know it is. Then I want 
to know what we can do, what we can do from this Committee, 
what we can do from this Senate, what we can do from this 
Congress. I just wonder if you have any thoughts on that, what 
our role is.
    Mr. Lee. I do. You touched on something that is vitally 
important. It is how non-Native kids are taught. If you go into 
virtually any textbook today and read the chapter on American 
Indians, it is all in the past, the far, far past. I would 
argue that while it is true that Indians have always been 
innovators and pioneered on countless innovations, there are so 
many present day success stories that we do not do a good 
enough job celebrating and highlighting. I think when we start 
to do that, we paint a very real picture for today's Native 
youth of what is possible, from the Red Lake Band that you 
mentioned to White Earth, to some of the work being done by 
Tribes in Montana, and all across Indian Country. There are so 
many, I mean, I was in this business for many years of 
celebrating success stories. I can tell you, every day I loved 
getting up in the morning, because I would find another example 
of Tribal success.
    We don't do a good enough job of highlighting that. And I 
am certain that non-Indian kids don't ever get exposed to some 
of the great things that are happening here today.
    The other comment I would make, Senator, is that this 
hearing is a great start, but it can't be the end.
    Ms. Titla. Can I add to that? I would like to say that 
something that your Committee is doing is with the Facebook 
page. I applaud you for that. You highlight role models around 
the Country, in Indian Country, Native Hawaiians. And I post 
that on my school's Facebook page. As communications officer, I 
want them to be exposed to the role models that are out there.
    It is getting a lot of visits. I don't know if you know 
that, but people are looking at that. Our children are hungry 
to see what is out there, they want to know who their role 
models are.
    But I also wanted to mention a couple of other things. That 
is, there is a lot more work that we need to do to educate the 
ignorant and erase racism. The two stories that I mentioned 
about what happened in my childhood, how many children today 
still feel embarrassed about their homes, Native children? How 
many are still hearing those racist comments? It is still 
happening today. So we have a lot of work to do.
    And the last thing I want to add is that we have State 
benchmarks that we have to meet. Our Native schools are not 
meeting those benchmarks. Many in Arizona are failing schools, 
including our school, unfortunately. The failing label needs to 
be applied to a system that knew the challenges and the 
struggles in these communities but did little to intervene in a 
meaningful way. So there is more that we can do there to help 
our schools so that they are meeting these benchmarks and are 
succeeding. And our kids are taking ownership of that, they 
produced a video this year about AIMS, encouraging their peers 
to do their best and pass AIMS. We showed that to the 
community, to the Tribal council, and it went a long way.
    They want to pass these benchmarks. They want to take pride 
in their school. They don't want to be labeled as a failing 
school. So there is more work to be done there.
    Senator Franken. AIMS is the NCLB test?
    Ms. Titla. Yes.
    Senator Franken. Okay. Well, thank you all. This is a 
continuing conversation. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Franken.
    Let me call on Senator Jon Tester for another question.
    Senator Tester. I just have one real quick one. It came at 
the end of my last round. Andrew, you talked about getting more 
Native Americans involved in Tribal governments, and then 
expanding that out into other government areas outside the 
Reservation. I think it is a great idea. It makes me think back 
to when I was graduating from college, my father said, I want 
you to come back and start farming, because if you go out into 
the real world and start making some money, you will never get 
back.
    Knowing that there are members from the Obama 
Administration that are watching this on their stations at 
home, and knowing, not knowing, but assuming that you probably 
make a pretty good chunk of dough where you are, would you be 
willing to take a cut in salary and come back and serve in the 
public service sector? Because that is probably what it would 
take?
    Mr. Lee. I have always viewed my career in many ways as 
being similar to a triathlon: business, civil society and 
public service. Now, my graduate school training was in public 
policy, so I have always had a passion actually for all three 
of those sectors. And over the years, I have been able to weave 
in parts of different sectors at each step of the way.
    So right now, you are right, I work for a corporation. But 
I give back significantly through board service. And while I 
can't predict what my career trajectory will ultimately be, I 
am absolutely open to going through the triathlon of serving in 
the private sector, in business and in government.
    Senator Tester. That is good, I applaud that. Because so 
many of the folks that want to come back and become public 
employees will take a significant cut in pay. Some of them are 
up here today, as a matter of fact, that were successful in the 
private sector, making money and decided to come back in. That 
is what it takes. And that is what it takes for everybody, not 
only Native Americans, but for everybody. I agree, if we can 
get more Native Americans out there in positions of importance, 
and there are a lot of them in government, I think it helps 
everybody.
    Thanks you all. Thanks again, Mr. Chairman, for the 
flexibility.
    The Chairman. Thank you very much, Senator Tester.
    Ms. Valbuena, in your testimony you state that history 
demands that we define ourselves to the non-Native world. And I 
was interested, of course you mentioned about the book and the 
two worlds. What lessons can you share from your experiences 
and your family's experiences in confronting historical as well 
as modern stereotypes?
    Ms. Valbuena. Thank you, Mr. Chairman. I think it all has 
to do with educating the general public on Tribes, how we are 
structured and what we do. As I had mentioned about the 
California League of Cities that our organization belongs to, 
we are there educating the elected officials. They were asking 
why we were there. So the way we explained it to them, and they 
had a better understanding was, you are an elected mayor and 
you serve your constituents and you have a city council. We 
have an elected Tribal chair or chief or president of our 
Tribes, and they do as the same, looking out for the best 
interests of those who got you elected.
    So they kind of had a better understanding. But again, I 
know that there are many people out there that I have talked to 
from different organizations that are non-Tribal that think, 
for example, that Indian casinos can only employ Indian people. 
When I tell them at San Manuel we have 98 percent of our almost 
4,000 employees are non-Indian people from the local community, 
they look at me like, you are kidding, we thought Indian 
casinos, you have to be Native American. And I said no, that is 
not so.
    So there are a lot of things out there, misconceptions, 
again, about paying taxes. We are always educating, always 
educating. I know we are running out of time here, but just 
real quickly I wanted to share another story. When I mentioned 
about Schwarzenegger having the ad on TV, ironically during 
that time that ad came out, I had two men in our home working 
on our TV when that ad came out. And I am in the kitchen 
watching dishes and they are in there downgrading the Indians 
saying this and that and those Indians and they get away with 
not paying taxes. So I had to set them straight and kick them 
out of my house.
    But they walked out saying, thank you very much, why aren't 
the Tribes more vocal? Why don't we see anything in the media 
or the paper about this? We didn't know. You educated us.
    So there are always ways out there to educate people on 
different issues from whether it is the language to the 
education to our culture and what we do out there in our Tribal 
governments. It is just a big job. I also understand that those 
Tribal leaders who are out there, you really, really have to 
have a passion for what you do to get it done.
    The Chairman. Thank you very much.
    This question is for the entire panel. It is asking you 
whether you have any final recommendations on how we can best 
reclaim our image and identity. And also ensure that our 
vibrant cultures will continue on into future generations. May 
I say now, we have a few minutes to go until another vote call. 
So we will conclude this panel with this question. Feel free to 
discuss it. We will go right, starting with Ms. Valbuena. Any 
final recommendations on how we can best reclaim our image and 
identity?
    Ms. Valbuena. Thank you, Mr. Chairman. As was said earlier 
by two of my other colleagues here, we are glad we are holding 
this hearing. We of course do not want this to be the last. I 
think initially we need to talk about setting up a meeting and 
kind of understanding where we are going with all this as far 
as recommendations and talk about what Congress can do or what 
the Indian Affairs Committee can do, and then get some 
recommendations down and suggestions and then go from there. 
But have that dialogue of communication and hold some more 
meetings.
    The Chairman. Thank you. Mr. Lee?
    Mr. Lee. Mr. Chairman, I am not going to give you a 
specific recommendation. But my recommendation is very 
specific. That is that we cannot retrench at all from the 
policy of self-determination and self-governance. It is only 
when Tribes have the ability to define their own futures and 
run their own affairs that we see success. Any student of 
history will tell you that the waxing and waning of Federal 
policy over the years has been tremendously harmful to Indian 
Country. For the past nearly 40 years, we have been on this 
path of self-determination, and it is the only policy approach 
that has resulted in any meaningful improvement in the material 
wealth and health and future promise of Indian Country.
    So if there is one thing that I would impress it is that we 
need to stay the course on self-determination and self-
governance.
    The Chairman. Thank you very much, Mr. Lee. Ms. Titla?
    Ms. Titla. Thank you, Mr. Chairman. Just to add to that 
last statement, in order to develop a world-class culturally-
based education, we need to make sure that all key stakeholders 
are at the table, that there is meaningful consultation and 
that Indian education programs are highly considered in terms 
of funding and support.
    Thank you.
    The Chairman. Thank you very much.
    I really appreciate this panel and your recommendations. 
This is so important, that we continue to try to move this and 
work on it with your recommendations as well. We are going to 
hear from another panel on future generations, too.
    So again, I thank you. This is just the first step in 
moving out. But we need to make the rest of the Nation and even 
the world aware of our cultures and also to be in a sense an 
example for other people. And so the examples comes from 
knowing our culture and heritage and practicing it and 
celebrating it.
    Thank you so much for what you have shared with us. It will 
really be helpful.
    At this time I would like to call a recess. I will have to 
go and vote, and I will be right back. Thank you very much.
    We stand in recess.
    [Recess.]
    The Chairman. The hearing will come to order.
    I would like to invite the second panel to the witness 
table. Serving on our second panel is Mr. Sam McCracken, 
General Manager, Nike N7 Program and Chairman of the N7 Fund; 
Ms. Tonantzin Carmelo, Screen Actors Guild Award Nominated 
Actor; and Ms. Marjorie Tahbone, Miss Indian World 2011-12.
    I want to welcome you to this hearing and thank you so much 
for being a part of this, as we take another step in making the 
rest of the Country aware of our indigenous peoples, as well as 
to try to structure something to get our people together in our 
future generations. At this time I would like to call on Mr. 
McCracken to please proceed with your testimony.

STATEMENT OF SAM McCRACKEN, GENERAL MANAGER, NIKE N7; CHAIRMAN, 
                            N7 FUND

    Mr. McCracken. Good afternoon, Chairman Akaka, Ranking 
Member Barrasso and distinguished members of the Committee. 
Thank you for the opportunity to appear before you today as we 
celebrate Native American Heritage Month.
    [Greeting in Native tongue.] My given name is Sam 
McCracken. I am an enrolled member of the Assiniboine Sioux 
Tribe on the Fort Peck Indian Reservation in Montana.
    At Nike, I am the General Manager of Nike N7. I also serve 
as the founder and chairman of the N7 Fund. N7 is inspired by 
Native wisdom of seven generations. It reads in every 
deliberation, we must consider the impact of our decisions on 
the seventh generation.
    Nike N7 is committed to programming and products that will 
empower Native American communities through the power of sport. 
In 2007, Nike unveiled the Air Native, a performance athletic 
shoe designed specifically for American Indians. The shoe was 
designed with the distinct foot shape for American Indians. It 
is only available today through Tribal health promotion disease 
prevention programs. Proceeds from the sale of the shoe, as 
well as our N7 collection, fund access to sport programs for 
Native youth.
    As members of this Committee know, the challenges our youth 
are facing today are daunting: high suicide rates, high obesity 
and type 2 diabetes rates and low graduation rates. At N7, we 
believe that sport is an antidote for change. What if sport 
could reduce the rates of diabetes? What if sport could reduce 
the rates of suicide with our youth? And what if sport could 
convince a kid to stay in school?
    There is ample evidence of the power of physical activity 
to enhance the physical, mental and spiritual health and 
academic performance. That is why N7 funds community programs 
designated to get our youth to achieve and move.
    I would like to take a moment to highlight a few of our 
grantees within our programs. The NB3 Foundation was founded by 
Notah Begay III, the only full-blooded Native American to play 
on the PGA Tour. In New Mexico, NB3 uses sport for social 
change to fight the epidemic of type 2 diabetes. They have an 
innovative soccer program that is getting great and amazing 
results.
    In South Dakota, N7 Fund works closely with the Boys and 
Girls Clubs and serves on several reservations, promoting 
healthy lifestyles. In Minnesota, we partner with the Leech 
Lake Band of Ojibwe Recreation Division to assure youth have 
access to sport.
    These are just a few of our community partners. Since 2009, 
the N7 Fund has awarded more than $2 million in grants. Today 
we have served 125,000 youth. Our goal is that the N7 Fund will 
serve 2 million Native youth by 2016.
    But programs are only effective if our youth choose to 
participate. We are fortunate to have several Native athletes 
who join us in this work to inspire and motivate our youth. N7 
Ambassadors lead by example: Jacoby Ellsbury, center fielder of 
the Boston Red Sox, an enrolled member of the Colorado River 
Indian community; Tahnee Robinson, professional basketball 
player, playing in Bulgaria presently, grew up on the Wind 
River Reservation in Wyoming; Sam Bradford, Heisman Trophy 
winner, quarterback for the St. Louis Rams, a citizen of the 
Cherokee Nation of Oklahoma; Chris Wondolowski, MLS soccer 
standout, and currently, as we sit here today, is being named 
the most valuable player of the major league soccer league, and 
is an enrolled member of the Kiowa Nation in Oklahoma.
    These athletes devoted their time and attention to the 
vision of advocating for greater access to sport for our Native 
youth. They know that sport can transform a person, and they 
believe that sport can transform a people.
    We all have a role to play in improving our future. At 
Nike, we have three MOUs with Federal agencies, the Indian 
Health Services, the Bureau of Indian Education and the 
Corporation for National and Community Service. Our goal is to 
work together to educate our Native communities about living 
heathy lifestyles.
    Federal and Tribal governments also play a key role. I urge 
the Committee to continue to support the Special Diabetes 
Program for American Indians. This program provides critical 
funding for diabetes treatment and prevention across Indian 
Country. I also want to encourage Tribal leaders to participate 
as well.
    In conclusion, I would like to invite each of you on the 
Committee to join us to come see first-hand what our community 
groups are doing to serve your constituents. Come watch a kid 
kick a ball, play, run, with children who benefit from the N7 
program. You will walk away inspired. Together, we can secure a 
future for Native American youth that has them running, 
jumping, kicking and reaching to fulfill their full human 
potential.
    Thank you.
    [The prepared statement of Mr. McCracken follows:]

    Prepared Statement of Sam McCracken, General Manager, NIKE N7; 
                           Chairman, N7 Fund

    Good afternoon. Chairman Akaka, Ranking Member Barrasso, and 
distinguished members of the Committee, thank you for the opportunity 
to appear before you today in celebration of Native American Heritage 
Month. It's an honor to share with you the work of NIKE N7, and join 
with you in efforts to improve the lives of our Native American youth.
    My name is Sam McCracken and I am a member of the Fort Peck Tribe. 
At NIKE, I am the General Manager for NIKE N7, and serve as Chairman of 
the N7 Fund. In this role, I have had the opportunity to work closely 
with government officials and community elders to endow programs that 
serve our community.
    N7 is inspired by the Native American wisdom of the seven 
generations: In every deliberation we must consider the impact of our 
decisions on the seventh generation. The ultimate goal of the N7 Fund 
is to consider this footprint and to help Native American youth 
recognize their proud history and build on it for a triumphant future.
What is N7 and the N7 Fund?
    NIKE N7 is a community program and product collection within NIKE 
that empowers Native American and Aboriginal communities through the 
power of sport and physical activity. The mission of the N7 Fund is to 
unleash the power of sport and all its benefits in these communities. 
The N7 Fund consists of contributions from donors and sales profits 
from the innovative Air Native N7 shoe and N7 Collection. The Air 
Native was unveiled in 2007, a new performance athletic shoe designed 
specifically for American Indians. The shoe was the product of more 
than two years of scientific analysis and work and not only has a 
larger fit for the distinct foot shape of American Indians, but also 
the culturally specific look for our community. One hundred percent of 
the N7 funds are provided in grants to non-profit community groups 
working to promote physical activity for youth. NIKE bears all 
administrative costs for the N7 Fund.

Challenges Facing Native American Youth
    The issues facing Native American youth are daunting. As Members of 
this Committee know, Native American and Aboriginal children face 
challenges to their success and wellbeing that call for immediate 
action. They experience the highest rate of poverty of any racial or 
ethnic group in North America, and by nearly all measurable standards--
dropout rates, college attendance and completion rates, test scores, 
even literacy rates--Native American and Aboriginal children are well 
behind their peers. Suicide rates for Native American youth are 127 
percent higher than the national average.
    Native communities also suffer disproportionately from the negative 
effects of diabetes and obesity. Diabetes inflicts Native Americans at 
a rate of 2.2 times higher the national average. One antidote for 
change is sport. According to the Centers for Disease Control and 
Prevention, regular physical activity reduces the risk of developing 
diabetes, colon cancer and high blood pressure. An active lifestyle 
helps people develop and maintain healthy bones, muscles and joints, 
especially if begun at an early age. Fitness also promotes 
psychological well-being, reducing feelings of depression and anxiety. 
And, the research now shows, regular physical activity can improve 
academic performance.
    That is why N7 funds community programs designed to get youth 
active and moving. I'd like to take a moment to highlight a few of our 
grant recipients:

  <bullet> NB3 Foundation: In 2005, 4-time PGA TOUR winner Notah Begay 
        III, the only full-blooded Native American on the PGA TOUR, 
        founded the Notah Begay III (NB3) Foundation. Notah, throughout 
        his career, has been a passionate and committed advocate for 
        the health and well-being of Native American youth and their 
        communities. He formed the NB3 Foundation to use sports and 
        wellness as a means for social change and to fight the epidemic 
        of type 2 diabetes.

     Based at the Santa Ana Pueblo in New Mexico, the NB3 Foundation 
        operates soccer, golf, health and youth leadership programs at 
        San Felipe Pueblo, in the greater Albuquerque area and other 
        tribal communities in New Mexico. NB3 now serves tribal 
        communities across the country and is a trusted partner of N7.

  <bullet> In Hawaii, the N7 Fund supports the Makawalu Foundation in 
        Honolulu and Kanalu in Kane'ohe. Both groups operate youth 
        programs that focus on the history and culture of the Native 
        communities.

  <bullet> In South Dakota, the N7 Fund works closely with the Boys and 
        Girls Clubs of the Three Districts and of Rosebud to support 
        programs supporting a healthy lifestyle.

  <bullet> In Minnesota, we partner with the Leech Lake Band of Ojibwe 
        Recreation Division to ensure youth programs are available and 
        accessible to kids.

    These are just a few of our community partners. Since 2009, the N7 
Fund has awarded more than $2 million in grants. Today, the N7 Fund 
supports programs serving 125,000 kids. Our goal is to grow the N7 Fund 
to serve 2 million kids by 2016.
    Programs are only effective if our youth choose to participate. We 
are very fortunate to have a number of leading Native American athletes 
join us in the work to inspire and motivate our youth. Our N7 
Ambassadors lead by example.

  <bullet> Jacoby Ellsbury is a proud member of the Colorado River 
        Indian Tribe and the first Native American of Navajo descent to 
        play Major League Baseball.

  <bullet> Tahnee Robinson led her Lander Valley High School basketball 
        team to a Wyoming state championship and went on to star at the 
        University of Nevada. She is only the second American Indian 
        woman to play professional basketball. Tahnee is a member of 
        the Northern Cheyenne Tribe in Montana.

  <bullet> Sam Bradford became the first Native American Player to win 
        a Heisman Trophy. Today, Sam leads the St. Louis Rams, and has 
        worked with N7 and Let's Move in Indian Country to advocate for 
        health achievement for Native youth. Sam is a citizen of the 
        Cherokee Indian nation.

  <bullet> Chris Wondolowski, a member of the Kiowa tribe, is a leading 
        scorer in the MLS, playing for the San Jose Earthquakes. Chris 
        was in Washington yesterday and had the chance to share his 
        story directly with many of you.

    These athletes devote time and attention to N7 to advocate for 
greater access to sport for Native American children. They know that 
sport can transform a person, and believe also that sport can transform 
a people.

Importance of Public-Private Partnerships
    At NIKE, we believe in public-private partnerships. We currently 
have a Memorandum of Understanding with the Bureau of Indian Education 
at the U.S. Department of the Interior, and with the Indian Health 
Service. Both are designed to encourage cooperation and collaboration 
between NIKE and the agencies to work together to educate American 
Indian and Alaska Native individuals and communities about healthy 
lifestyles. N7 also has a Memorandum of Understanding with the 
Corporation for National and Community Service. N7 recently funded 5 
VISTA volunteers to serve in Native American community organizations. 
We are very excited to continue this unique partnership.
    Beyond N7, NIKE also is working in communities across the country, 
seeking partners in the public and private sectors to join us in the 
fight against the physical inactivity epidemic in America and around 
the globe not just focused on the Native American community. The 
centerpiece of this effort is a recently released blueprint and call to 
action. I encourage you to visit Designedtomove.org for more details.
    Federal and tribal governments can and must engage aggressively to 
tackle the problem. I would urge the Committee's continued support for 
one vital program in particular that is improving the lives of Native 
American Youth--the Special Diabetes Program for Indians (SDPI). This 
program provides vital funding for diabetes treatment and prevention to 
404 Indian Health Service tribal and urban Indian health programs 
across the United States. I hope the Reauthorization and full funding 
for this program will be high on the agenda of the Committee in the 
113th Congress.
    In conclusion, I also urge each of you to join us. Come see first-
hand the work your community groups are doing to serve your 
constituents. Come play catch, kick a ball or go for a run with a child 
who benefits from an N7 partnership grant. You will not walk away 
unaffected or uninspired.
    NIKE's CEO, Mark Parker often says that we at NIKE are in the 
business of helping people achieve their fullest potential, with sport 
being our vehicle to do so.
    Together we can secure a future for Native American and Aboriginal 
youth that has future generations running, jumping and kicking to reach 
their full potential.
    Thank you for your time and attention.

    The Chairman. Thank you very much, Mr. McCracken, for your 
testimony.
    Ms. Carmelo. will you please proceed with your testimony?

STATEMENT OF TONANTZIN CARMELO, SCREEN ACTORS GUILD AWARD (SAG) 
                        NOMINATED ACTOR

    Ms. Carmelo. Meeyeha, Awishconeha. Greetings to Chairman 
Akaka and the esteemed Committee.
    It is an honor to be asked on the basis of my work to 
contribute insight and inspiration on reclaiming our identity 
as Indian people for the next seven generations. I am a 
descendant of the Mission Indians of Southern California on my 
mother's side.
    When reflecting on the theme of this hearing, I had to look 
back on my own family to appreciate what it is that brought me 
here to this moment. Seven generations ago, many fo my 
ancestors were experiencing the ongoing extreme hardships of 
first contact. On one side of my family tree, my grandfather, 
Juyunat, was presenting his son for baptism to the Spanish 
friars at the San Gabriel Mission. On another branch of that 
same tree, down at the San Diego Mission, another grandfather's 
name was changed from Ulliu to Clemente. His son Francisco 
acquired the surname of Carmelo, most likely from the renaming 
of a mountain near his original village. I am honored to still 
carry that name.
    From that generation to mine, there has been numerous 
challenges to our Indian identity and perseverance to reclaim 
and retain it. After the Spanish followed the Mexican period, 
which began the parceling and sale of longstanding Tribal lands 
and villages. There were revolts, there was resistance.
    Then came statehood. In particular, this body's decision to 
place an injunction of secrecy upon the 18 treaties negotiated 
between the United States and the various Indian Nations whose 
ancestral lands later became the State of California. These 
treaties were never ratified, affecting the identification of 
many of the Tribes in California who are today no longer 
federally-recognized, among them one of my Tribes, the 
Gabreilino, or Tongva.
    The government did identify Indians on the California State 
Census of 1852, and the BIA attempted to remediate with the 
California Indian judgment rolls of 1928, 1952 and 1972. My 
direct ancestors appear on all of these documents. Rancherias 
and reservations were established, and educational 
institutions, such as the Sherman Indian School. Two 
generations of my family resided on the Soboba Reservation, and 
at least three generations of my family were educated at 
Sherman.
    Four generations go, my great-grandfather left the 
reservation in search of opportunity, moving back to the heart 
of ancestral lands, the Los Angeles Basin. My family became 
urban Indians. Today, Los Angeles hosts one of the largest 
populations of urban Indians in the United States, identity and 
culture persisting. My mother, being one of them, is an avid 
cultural activist and leader, tirelessly working to preserve 
Indian songs and dances, and reviving our language. She also is 
an active member of the pan urban Indian community.
    In my own work as an actor, I have had the good fortune to 
play notable roles in historical pieces. My portrayal of these 
roles has been inspired by my own grandmothers and from a 
sincere understanding of my culture and a respect for that of 
other Tribes. Most importantly, there is a true connection to 
the beautiful strength of the Indian woman.
    I also have had the good fortune of performing modern roles 
that include a Lakota prosecutor, a Navajo botanist and an 
Apache physician and several non-Native and ethnically 
ambiguous roles, of which I am equally proud. Obviously, great 
strides have been made to allow a person of my color and 
background to have a far greater amount of creative control, 
input and opportunity in this industry.
    However, what is most important to realize is that artistic 
expression in film and television is a collaborative process. 
It takes talented people and diverse approaches that can help 
make a more compelling product. What matters most is that those 
involved sincerely relate, understand and honestly portray the 
story at hand.
    As an artist, I seek opportunities to express myself 
outside of my race and my American/Native American/Mestiza and 
Latina cultures. In other words, to do what actors do, to tell 
stories and entertain. It is important that we strive for this 
and equally important that we be embraced for our talents, 
craftsmanship and ability to contribute.
    This is our current challenge: to transcend the stigma of 
our color and our history by continuing to develop talent as 
playwrights, screenwriters, directors and actors into the 
larger art form of film and television, a very powerful medium. 
As Native artists, our current plea is to simply have the same 
opportunity to harmonize our truths, our ideas, our stories and 
our talents into the song that is modern American society, all 
the while being able to maintain those qualities about us that 
make us who we are, the first Americans.
    Thank you.
    [The prepared statement of Ms. Carmelo follows:]

  Prepared Statement of Tonantzin Carmelo, Screen Actors Guild Award 
                         (SAG) Nominated Actor

Intro/History
    Meeyeha, Awishconeha, Greetings to Chairman Akaka and the esteemed 
members of this committee. It is an honor to be asked on the basis of 
my work to contribute insight and inspirations on reclaiming our 
Identity as Indian people for the next seven generations.
    I'm a descendent of the Mission Indians of Southern California on 
my mother's side. When reflecting on the theme of this hearing I had to 
look back on my own family to appreciate what it is that brought me 
here to this moment. Seven generations ago, many of my ancestors were 
experiencing the ongoing extreme hardships of first contact. On one 
side of my family tree, my grandfather Juyunat was presenting his son 
for baptism to the Spanish friars at the San Gabriel Mission. On 
another branch of that same tree, down at the San Diego Mission, 
another grandfather's name was changed from Ulliu to Clemente. His son 
Francisco acquired the surname of Carmelo, most likely from the 
renaming of a mountain near his original village. I'm honored to still 
carry that name.
    From that generation to mine there have been numerous challenges to 
our Indian identity, and perseverance to reclaim and retain it. After 
the Spanish, followed the Mexican period, which began the parceling and 
sale of long standing tribal lands and villages. There were revolts, 
there was resistance.
    Then came statehood. In particular, this body's decision to place 
an injunction of secrecy upon the 18 treaties negotiated between the 
United States and the various Indian Nations whose ancestral lands 
became the state of California. These treaties were never ratified, 
affecting the identification of many of the tribes in California who 
are today no longer federally recognized, among them one of my tribes--
the Gabreilino or Tongva.
    The Government did identify Indians on the California State Census 
of 1852, and the BIA attempted to remediate with the California Indian 
judgment rolls of 1928, 1952, and 1972. My direct ancestors appear on 
all of these documents. Rancherias and Reservations were established, 
and educational institutions, such as Sherman Indian School. Two 
generations of my family resided on the Soboba Reservation, and at 
least three generations of my family were educated at Sherman.
    Four generations ago, my Great Grandfather left the reservation in 
search of opportunity, moving back to the heart of ancestral lands, the 
Los Angeles Basin. My family became ``urban Indians''. Los Angeles now 
hosts one of the largest populations of Urban Indians in the United 
States . . . identity and culture persisting.
    My Grandfather and Grandmother spent weekends with family on the 
reservation and his generation was part of the Mission Indian 
Federation, a political and social group organized to address the 
issues affecting similarly situated Indian people. Today, my mother is 
an avid cultural activist and leader, tirelessly working to preserve 
Indian songs and dances, and reviving our language. She is also an 
active member of the pan urban Indian community, both north and south 
of the border.
    The most vexing issue affecting our tribe is repatriation. If ever 
there was an indignity that screams for redress it is this one. Our 
ancestral lands are today a sprawling urban area where scores of un-
repatriated bodies of our ancestors lie in museums, archeological 
archives, university storage rooms, and private collections. This is 
not an issue affecting only recent generations. My own Great-
Grandmother faced these issues more than eighty years ago. (I am 
attaching to this testimony both a newspaper article from the time and 
a letter written by her in response to an inquiry created by the story 
for review by the Committee.) Unfortunately, however, repatriation of 
the remains of our ancestors requires petition by a federally 
recognized tribe. This hits at the very core of our identity. The name 
Tongva literally means People of the Earth, a name that encapsulates 
the core beliefs of our people. These ancestors must be honored, by 
acknowledging their humanity and returning them to the earth.

My Work and My Attempt to Portray Positive Images
    In my work own as an actor, I have had the good fortune to play 
notable roles in historical pieces. My portrayal of these roles has 
been inspired by own Grandmothers and from a sincere understanding of 
my culture, and a respect for that of other tribes. Most important, 
there is a true connection to the beautiful strength of the Indian 
women.
    I am indebted to the kindred spirits who have provided me with 
opportunities to hone my craft and develop as an artist. People such as 
Randy Reinholz and Jeanne Bruce Scott with Native Voices at the Autry, 
the country's only Equity theatre company dedicated exclusively to 
producing new works by Native American, Alaska Native, and First 
Nations playwrights. Similarly, the opportunity to work with Chris Eyre 
in the only movie to date featuring a modern, professional Indian 
female lead character has been rewarding as well.
    In addition to playing a Lakota prosecutor, I've also played other 
modern, professional Native roles including a Navaho botanist and, more 
recently, an Apache physician, as well as several non-native and 
ethnically ambiguous roles, of which I am equally proud. Obviously, 
great strides have been made to allow a person of my color and 
background to have a far greater amount of creative control, input and 
opportunity in this industry.
    However, what is most important to realize is that artistic 
expression in film and television is a collaborative process. It takes 
talented people and diverse approaches can help make a more compelling 
product. What matters most is that those involved sincerely relate, 
understand, and honestly portray the story at hand.
    As an artist, I seek opportunities to express myself outside of my 
race and my American/Native American/Mestiza and Latina cultures. In 
other words, to do what actors do--to tell stories and entertain. Just 
like any other artist, I should not be limited to playing Native roles. 
It is important that we strive for this, and equally important that we 
be embraced for our talents, craftsmanship and ability to contribute.
    This is our current challenge: To transcend the stigma of our color 
and our history by continuing to develop talent as playwrights, 
screenwriters, directors, and actors into the larger art form of film 
and television. As Native artists, our current plea is to simply have 
the same opportunity to harmonize our truths, our ideas, our stories 
and our talents into the song that is modern American society--all the 
while being able to maintain those qualities about us that make us what 
we are, the first Americans.
    Attachments

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    The Chairman. Thank you very much, Ms. Carmelo.
    And now we will hear from Ms. Tahbone. Please proceed with 
your testimony.

  STATEMENT OF MARJORIE LINNE TUNGWENUK TAHBONE, FORMER MISS 
                     INDIAN WORLD 2011-2012

    Ms. Tahbone. Thank you, Mr. Chairman. I would like to 
recognize all of the people from my home town of Nome, I am 
from Alaska. I would also like to recognize the Kuwarek, Inc., 
who funded my trip here.
    Good afternoon, Chairman Akaka and all the Senators that 
could not make it here. I am here to talk to you today about 
the issues that we face today as a youth. I am the youth that 
you all talk about and speak of for this generation and the 
next generation, and the future generations that will come 
after me.
    Let's talk about the issues that are surrounding my 
community and my current surroundings. I hear all too often of 
the statistics, the negative statistics about poverty, drug 
abuse, teen pregnancy, high school dropout rates. But first I 
would like to mention that these statistics are said too often, 
way too often. Let's share some positive statistics, maybe of 
the ever-growing statistics of Native American and Inuit people 
graduating from college, more and more high school students are 
staying in school, more and more are learning about their 
traditional culture and want to learn about their language.
    But I understand that we have a certain amount of time 
here, so I want to say, let's get straight to the point. I grew 
up in a very fast-paced community, very fast, let's go, let's 
go. I have an iPhone that can do anything in about five 
minutes. So let's get right down to business.
    What we see here is children struggling to know their 
identity. We see them trying to reclaim it. There are so many 
barriers in their way that we may not understand, such as 
technology, that barrier that some people may not be 
technology-savvy, some elders that I may know, they say, I 
don't understand your technology. But it is a barrier to us 
because we don't utilize it the way we should, the way we 
should take advantage of this technology.
    There are other barriers that I see that portray negative 
stereotypes of Native Americans and Inuit on TV, movies and 
books, history books. I see that our school system is still 
teaching kid about things that are not relevant to their well-
being. I grew up in a community where we did not have trees, 
skyscrapers or sidewalks, even street lights. And yet we were 
learning about them in school and we had to recognize them in 
our standardized testing.
    Now, I am not just talking to the Senators of the Committee 
but also the people that sit behind me and the people that are 
listening on webcast. It is us that can do these things 
together, build allies, build a strong foundation for our 
children and the next generation. We need to teach our children 
how to be responsible, respectful and have strong identities.
    It is interesting to think about that we need to say this 
now when our ancestors had already taught their children these 
cultural values of respect, responsibility, cooperation, 
understanding. We have lost that some how along the way. Now we 
need to regain it.
    I understand that in some of the communities where I come 
from some barriers that I may challenge is there is less law 
restricting the sale of alcohol. To me, I understand that there 
is a lot of alcoholism and things going on. But I see that as a 
barrier. How can we expect our children to be responsible 
drinkers when they are sheltered from it, when we babysit them 
and say, no, no, no, you can't even see it, can't even touch 
it. The solution to alcoholism is not to restrict it from us 
but it is to teach us the respect and responsibility that comes 
with taking that drink.
    In my Inupiaq culture, values, it is important to teach 
responsibility and to have respect for one's self. So why are 
we not teaching these strong cultural values in school every 
day? Some of my classmates, it is the truth, when I ask them, 
what does drinking mean to you, what does alcohol mean to you? 
And they said to me that alcohol means to get drunk. And I was 
appalled.
    When I was in New Zealand as Miss Indian World, I traveled 
there, and I was amazed, just amazed to see how they teach 
their children the responsibilities of drinking alcohol, that 
it was not a means to get drunk, but rather a mean to enjoy a 
simple meal, a glass of wine to enhance flavors. This is 
something that we need to teach our children, that 
responsibility.
    I am sure my mom was really shaking her head when that 
Senator said that we need to start putting out some PSAs. She 
said, yes, I could just see her saying, yes, yes, we need to 
campaign, we need to really campaign, because it is not only 
that the people of America do not know about our cultures, 
Native American cultures, even Inuit cultures up in the north 
and Alaska, but it is also the Native American children that 
don't know as well. There is a lot of these negative 
stereotypes that we have already talked about so many times 
that is portrayed in the movies that we need to change.
    Another issue is the diabetes that we have up in Nome. And 
all of these issues are related to issues that I am familiar 
with, that I grew up around in Alaska. And in the rural 
communities of Alaska, where you cannot drive in or out of the 
villages, and we only have one store that only has pop and 
chips, it is hard to live a heathy lifestyle. But one way we 
could do that, one way the people behind me, the people on the 
webcast can do to change that is learn your traditional values 
of subsistence, culture and hunting. Teach our children to eat 
healthy caribou, fish, berries and seal instead of chips, candy 
and pop. I often hear that our traditional diet is one of the 
healthiest diets.
    And in Alaska, we have so much opportunity, we just need 
the guidance from our leadership. We need the guidance from 
you. I know that if our leadership will show respect for our 
people that our people will show respect for themselves and 
that other people will show respect for each other. We must 
adapt in this ever-changing world and society. We have so many 
cultures that are represented here today.
    And we need to adapt so that we are represented properly. 
That is what our ancestors did, they adapted. The modern 
education needs to adapt to its curriculum to benefit the 
children who receive them. The mainstream media needs to adapt 
its portrayal of indigenous people to a more accurate and 
positive one. And our leadership needs to adapt to create a 
positive environment so that we can work together on these 
important issues.
    And we need to adapt together so that our children can look 
upon us as role models and positive figures in our lives. I 
would just like to say thank you for your time and I welcome 
the opportunity for any questions. Quyanaqpak.
    [The prepared statement of Ms. Tahbone follows:]

  Prepared Statement of Marjorie Linne Tungwenuk Tahbone, Former Miss 
                         Indian World 2011-2012

Introduction
    Good Afternoon. Chairman Akaka, Vice Chairman Barrasso and 
distinguished members of the Committee. I am honored to speak on behalf 
of my family, community, and people before you today. My name is 
Marjorie Linne Tungwenuk Tahbone from Nome, Alaska; my Inupiaq name is 
Kunaq. I was raised just outside of Nome at our family camp and was 
taught a subsistence lifestyle by my parents Sandy and Carleton 
Tahbone. My lineage is both Inupiaq Eskimo and Kiowa Indian. Last year 
I was given the honor of representing all the Indigenous Nations of 
North America as Miss Indian World 2011-2012. I am currently attending 
the University of Alaska Fairbanks and am graduating this December with 
a bachelor's degree in Alaska Native Studies and Inupiaq language.

Reclaiming my Identity
    Growing up in a rural isolated community I had no connection to the 
outside world, but that is how I liked it. All that seemed relevant was 
how to live in my environment; where tundra grew, the ocean roared, and 
the wildlife roamed. I had no troubles growing up, only the troubles of 
a young child learning from their mistakes. And this is how I lived; 
when I was old enough for school my family would leave camp so that I 
could attend during the winter. I loved going to school, I could never 
wait until it started once again. I remember the day before school I 
would stay up all night because I was so excited that I could not 
sleep.
    One day while I was in school there was an assembly and all the 
children were brought to the gym, as I walked in the gym I was shocked 
and amazed to see a real Indian all dressed up. Upon closer examination 
I realized that this real Indian was my dad, I had never seen him in 
these clothes before. I was in 2nd grade and it was the first time we 
had Indigenous Cultures day. It was this day that I realized I was 
Indian. Before I always knew I was Inupiaq, and Nome is a diverse 
community so people saying I was Indian just did not happen.
    When I was 12 years old, along with my younger sister were sent 
down to Oklahoma for the summer where my Kiowa side of the family 
lived. It was my first time leaving Alaska and meeting any family from 
down south. My loving grandparents dressed me in Kiowa regalia and 
taught my sister and I how to dance and sing, even how to say a few 
phrases in Kiowa. And they told us that we were Kiowa and to be proud 
of it and we were. When school started the following fall I was the 
``expert'' on Indians because where I was from there are no Indians. 
But I knew nothing of my tribe, I did not know the creation story, the 
meaning of songs, or anything relating to Kiowa traditions, I was not 
raised Kiowa, I was raised as an Inupiaq.
    My identity was split between Inupiaq and Kiowa, both cultures on 
extremely different parts of the globe. Who was I suppose to be? Could 
I be both? I had Inupiaq mentors but no Kiowa mentors, so to compensate 
I started to rely on media and books to teach me how to be an Indian. I 
had seen Pocahontas, Dances with Wolves, Bugs Bunny with Indians, and I 
took those as accurate portrayals of Indian people. I had unknowingly 
created a false identity of myself.
    On top of my confusion in school I was taught about trees, street 
lights, and skyscrapers, and yet we had none of those in Nome. We were 
taught to memorize all of the United State Presidents but not of our 
ancestral leaders and prophets. I started to wonder how knowing of 
trees, street lights, and skyscrapers was going to help me survive in 
the cold Alaskan Arctic. Why was I not taught about the dangers of sea 
ice? Or how to read weather patterns in my area? Or learn about my 
cultural history? I was learning things that were simply not relevant 
to me or the Inupiaq children at my school. At a young age our 
identities were taken away in exchange for a western foreign one.
    Of course we did not have it as bad as the generation that came 
before us where they were sent to boarding schools and were punished 
for speaking their language. Now we face a completely different issue 
with false identity and negative stereotypes. We as youth are torn 
between our traditional culture and modern culture. We learn at school 
what we need to know to pass standardized test even though the 
questions do not relate to our well-being. We struggle to find our 
identities alone because our parents were punished for knowing their 
culture and language and do not want the same punishment for their 
children. But that does not deter us youth into finding a way to make 
it all work. We adapt to the ever changing ways of modern society and 
incorporate our traditional values and lifestyle into it.
    All throughout high school I had a false identity of who I was. It 
was not until college when I really started to ask the question of who 
I really was. I knew in my heart I was full Inupiaq, but on paper I was 
only \1/4\ Inupiaq and \1/2\ Kiowa. The paper said I was more Kiowa 
than Inupiaq but that was not what I knew in my heart. I looked Indian 
but I ate, dressed, spoke like an Inupiaq. Modern society says I am 
acculturated and need to focus on living in this new time, the elders 
say I am Inupiaq and Kiowa, so who was I suppose to be? But I found my 
identity, I reclaimed it, it was mine. I recognize and acknowledge my 
Kiowa side and have great respect for the tribe, but I say I am Inupiaq 
because that is who I identify myself as. It took me all too long to 
come to this realization and I am sure there are children and teenagers 
even adults who are going through the same thing. But we have the power 
to change that, with one word, adaptability. The modern education needs 
to adapt its curriculum to benefit the children who receive them. The 
mainstream media needs to adapt its portrayal of Indigenous people to a 
more accurate and positive one. And our leadership needs to adapt to 
create a positive environment so that we can work together on these 
important issues.

Conclusion
    I am the youth that you all speak of, and I know you are working 
hard for us and the next seven generations. But the youth is resilient, 
we learn and make mistakes by trying to understand how we can bridge 
the gap between traditional and modern culture, we just need to be 
guided down the right path by our leaders and community. Once again I 
thank you for allowing me to speak. Quyanaqpak.

    The Chairman. Thank you very much for your testimony.
    Mr. McCracken, we are delighted to have you here, with your 
background and your working with many great athletes. You have 
done an amazing job of partnering up with some of those great 
world athletes.
    My question to you is, how has N7 changed or benefitted the 
corporate culture at Nike?
    Mr. McCracken. Thank you for the question. I think we have 
helped change the corporate culture, because they have learned 
a little bit about the seven generation philosophy. I can only 
portray the definition of how my family defined it for me. And 
I share that with our corporate leadership in saying that when 
my grandfather explained to me, when I was going to leave the 
reservation, that I was going to work in the white man's world, 
and I needed to understand where I came from.
    And he explained to me the seven generations as something 
that will be a core value of who I am. He explained it to me in 
a way that, I look back three generations for guidance, 
direction and focus. I look forward three generations to 
hopefully make a difference or create an impact or create 
change for those people who come after me. Because as the 
Creator looks down on me in the middle, they are going to 
identify me and who I am and what I do and what I stand for, 
for my family.
    And I explain that to the corporate leaders, and we do 
that, from a Nike perspective, they look back to former 
athletes and former people who have inspired this company to 
grow to where it is today and look forward to provide 
inspiration and innovation to athletes who come after them.
    So I think N7 has had a tremendous impact on the 
understanding of the values of seven generations.
    The Chairman. Thank you very much.
    Ms. Carmelo, in your testimony you mentioned that your 
people were a subject of treaties and attended Indian schools 
but currently lack the authority to protect your ancestors. My 
question is, how does this lack of Federal recognition impact 
the ability to maintain your people's culture and identity?
    Ms. Carmelo. Most immediately, it impacts us in many, many 
ways, our identity. But the most immediate thing that is 
impacting, the Los Angeles Basin has many Tribal burial grounds 
that are continuously being unearthed, all the time. Three 
times a year we find more and more burials. And Tongva means 
people of the earth. That is our belief, that we are people of 
the earth, we have to go back to the earth when we are done in 
this life.
    So these burial grounds get unearthed, and there is nobody 
to be able to receive these remains. We can get some of the 
outside federally-recognized Tribes to do that, and they have 
done that. But it is not the same. We need to have our 
ancestors and repatriate our ancestors back to the ground. That 
is one of the most immediate issues to me, is one of the deep 
hurts of not having Federal recognition. There are many others. 
But that is one of them.
    As far as our identity, it is a very strange thing to be on 
my ancestral lands and not be federally-recognized. Because 
there is a big urban Indian community there, there are many 
federally-recognized Tribes that are in the area. We organize, 
and it is a strange thing, because we are in our own ancestral 
lands, but yet we are not federally-recognized. I think that 
there is much discrimination against us, actually.
    The Chairman. One of the questions that is asked is, in 
your work as an actress, are there any other indigenous people 
as actresses or actors that you know of?
    Ms. Carmelo. It is a small community, yes. And we mostly 
all know each other and work with each other over and over 
again. I think I have one actor who has played my brother and 
my love interest several times over and over again. It just 
recycles.
    So yes, we all know each other very well. And it is a 
pretty small community.
    The Chairman. Ms. Tahbone, you have the title of Miss 
Indian World. Last year, you won the prestigious title. Can you 
please talk about the criteria used to judge the contestants? 
Are these types of competitions effective in promoting cultural 
preservation?
    Ms. Tahbone. Yes. Miss Indian World, just a quick brief on 
it, if you think about the Miss America pageant, and think 
about that, but reverse it for, it is not a beauty pageant, it 
is more of a cultural knowledge pageant. So it is a type of 
pageant where the women have to show poise and grace and 
knowledge on their culture. The criteria that we do in the Miss 
Indian World pageant is we have to present an essay where we 
have to be judged on our talent, so we decide to do a talent, 
and then we are also judged on a specific type of dance style, 
usually from where you are from, and then we also do a panel of 
judges are interviewing us, and then of course impromptu 
questions.
    And it does a lot, I think it is a great thing to do, 
especially for the young Native children, especially the young 
girls, have someone to look up to, someone to be. When I went 
and competed, I decided to do traditional Native games, which 
is really important in Alaska. I was talking to Sam about, we 
need to start working together so we can start building allies 
and get some funding up there for us, so that the children 
could start getting into traditional Native games. We have 
about 100 traditional Native games up north that we use that we 
created on our own, so that we can develop our bodies, prepare 
our bodies to hunt out on the ice and develop skills that we 
may need to survive. That is what our ancestors did to create 
those games. We still carry on that tradition.
    This pageant really helped me to open my eyes to be able to 
talk to people about these types of things that are going on in 
our communities. I met a lot of great people, and I think these 
type of pageants are key to getting a lot of the young girls 
interested in learning our culture, because they can wear a 
beautiful crown, they want to be that princess, you know that. 
Because when I saw those girls, I said, a princess. And it is 
always the best when they really look up to you. All I had was 
a beaded crown. I was not a princess, but to them I was. And 
that was the best thing.
    The Chairman. Thank you very much.
    Mr. McCracken, again I want to commend you on the great 
vision you brought to Nike. That vision has stood with the 
seven generations philosophy. Can and should other businesses 
seek to replicate the N7 model?
    Mr. McCracken. Thank you for the question. It would be an 
honor to have other companies want to give back in a community 
where I grew up. I would encourage all companies to look at 
this community through the same lens that we have looked at it 
from a Nike perspective. Nike gave me the opportunity to do 
this work. I am forever grateful for this opportunity, because 
I know that eventually we will make a difference in our 
communities. We know what sport means to our kids and our 
communities.
    If you go to any large Indian gathering, you will find guys 
like Ernie Stephens telling war stories about how he played 
basketball against Tex Hall. So the stories will go on forever. 
Those stories happen because we have sport. I would encourage 
other companies to join along and be part of what we call our 
celebration of sport in our communities. Because it will create 
a healthier lifestyle for our communities for years to come.
    The Chairman. Thank you very much for that.
    Ms. Carmelo, you have had the opportunity to act in both 
historical and modern roles. Can you talk about the importance 
of more Natives having the opportunity to transition to and 
from both types of roles?
    Ms. Carmelo. Yes, I think it is very important to have both 
non-Native and Native roles. Whatever role we can possibly be 
conceived in. Because it is a really beautiful thing as an 
artist, number one, to be able to have that freedom. And that 
is what every artist strives for, I believe.
    Also as far as being role models, people to look up to, Ms. 
Tahbone is a role model for her community. People see her, the 
younger girls see her, and I think that is the same thing that 
happens on a larger scale when you see somebody on film and 
television who is like you in some way. You see something.
    One of the Senators was talking about that some of the 
children on reservations can't even conceive, and I have seen 
that myself, I have actually visited a lot of Indian world, I 
started off as a cultural dancer, presenting throughout the 
United States. So I have seen a lot of Indian Country myself, 
stayed on reservations quite a bit. And I have seen that, where 
the children you see something really funny in them or really 
beautiful, some talent in them. You tell them, you know what, 
you could do this, you could go on. And they can't even 
conceive of it sometimes.
    And I think that it is so important to have that 
inspiration for the children. Even for the population at large 
to see people of any color on film and television, other 
colors, of color, period.
    The Chairman. Thank you.
    Ms. Tahbone, as a young Native woman, what do you believe 
are some of the greatest challenges that lie ahead for your 
community? What steps can be taken to address these challenges?
    Ms. Tahbone. In my generation, I think one of the biggest 
challenges that I went through and a lot of my peers are going 
through is that we are being labeled with that blood quantum. I 
wrote in my testimony that I am more Kiowa than I am Inupiaq, 
but in my heart, I am full Inupiaq, because that is how I was 
raised.
    When we play these traditional Native games, I am an avid 
player, athlete in these traditional Native games. In our 
criteria, you have to be a quarter Native to play. It is 
interesting, because a lot of the athletes that are in these 
events are, they grew up in rural communities but they are only 
an eight or they are only a sixteenth Native and they cannot 
participate in something that should let everyone participate.
    I think that is one of the struggles that I see happening 
in the near generation, is that my kids may only be an eighth. 
You never know what is going to happen in the future, a lot of 
things could happen. But one thing for sure is that I know I am 
definitely going to teach my children how to be Inupiaq. That 
is just the way that I grew up. I want them to know that.
    But when someone says, no, you cannot play because your 
blood says otherwise, I think that is one of the biggest 
challenges that I see for the future generations, is that 
restriction because of the blood. It is interesting to think 
about, because my grandfather, he is full-blooded Kiowa. But he 
says, they just counted me full-blooded, but really I am half 
Irish, too. They didn't catch me in time.
    And I think that is so funny, because we pride ourselves on 
yes, I am full, four fourth blood quantum. But what are we 
really at heart? I think that is one of the biggest challenges, 
is that identity with blood quantum.
    The Chairman. Thank you for that. I have a final question 
to the panel. Any final recommendations on how we can best 
reclaim our image and identity and also ensure that our vibrant 
cultures will continue on into future generations? Now, this is 
looking ahead, this is visionary. You have provided and shared 
experiences that we hope the generations that are here now can 
pick up and move on here.
    We would like to, as we have here, we want to look at seven 
generations, to plan for it. But time passes quickly and we 
need to get our young people, our future generations to know 
our culture and heritage and identity better than some of them 
do now, and to continue to develop that for the future.
    So I am going to call on Sam McCracken first, for any final 
recommendations on how we can best reclaim our image and 
identity.
    Mr. McCracken. Thank you again for the opportunity. I think 
my final recommendation would be that we need support from 
Tribal leadership, government and policy makers, as well as 
additional foundations, to really support, from our 
perspective, the vision of providing access to sport for our 
Native youth. We have seen that physical activity has increased 
education in the classroom, clearer minds.
    One of the roles that I play for our community is I sit on 
the National Advisory Committee on Indian Education for the 
President. And I continually remind those policy makers, when I 
go to that meeting, because we talk a lot about math and 
reading and science in education and the educational structure. 
But I always continue to encourage them that we can't forget 
about the physical activity piece, because that is what makes 
our kids whole.
    I think as we are going to set the foundation for future 
generations, I would encourage policy makers to look at 
programs that will encourage physical activity for the next 
seven generations. So I thank you for the opportunity.
    The Chairman. Thank you very much. Ms. Carmelo?
    Ms. Carmelo. As for reclaiming our identity, I think that 
obviously most of the people that you invited here today are 
very invested in that. It definitely takes the leaders, the 
Tribal leaders of all our nations to lead the way in that way.
    I believe one of the main sources of reclaiming our 
identity is our language. Another way, of course, for our 
particular Tribe, well, for one of my Tribes, is Federal 
recognition. I think it helps a lot to bind the Tribe together 
in a manner that is not available for non-federally-recognized 
Tribes.
    I also believe what Ms. Tahbone said, the blood quantum 
issue is a big issue. Because many people want to teach their 
children their Tribal traditions. The truth is, we don't need 
the Federal Government to recognize us and to tell us that we 
are Indian. We are Indian. We know our heritage and our 
background.
    But it does help for those future generations, if we can't 
marry within our own Tribes, for those future generations, if I 
want to bring my children up or my children's children up that 
way, it helps them to have their identity also. It 
substantiates it. It doesn't hinge on it, but it helps it quite 
a bit.
    The Chairman. Thank you very much.
    Ms. Tahbone.
    Ms. Tahbone. My recommendation, I think Sam just took my 
recommendation. Strong foundation, that is what I was going to 
post mine on. But yes, building strong foundations for our 
children is one of the biggest things that we need to do. My 
recommendation for you guys is to just kind of put more 
information out there for them, PSAs and campaigns about Native 
Americans, something that is positive for them to look up to.
    When I was in Nome, I was reading a book to the kids, then 
we asked them, what did you want to be when you grow up, 
because it was about careers. They all said, oh, a janitor, a 
teacher. But it was because that is who they were always around 
all day at school, their teachers and the janitors. And a 
thought came to me that, these children, they look up to us so 
much that they don't really care what we do, they just want to 
do what we do.
    So when we give that positive vibe, when we do something 
that is important, those kids will want to do the same thing. I 
think that is what we should do, what you guys can do, to 
promote that for the children and the next seven generations. 
Thank you.
    The Chairman. Thank you very much for that.
    I want to extend a special mahalo, thank you to our 
witnesses for participating in today's hearing. I commend the 
tremendous work you all are doing and wish you well in your 
future endeavors.
    Though I am retiring soon, I know Indian Country is in good 
hands. And we are talking about leadership, it is there, it is 
coming, it is building. It is in good hands because of leaders 
here today. What Sam McCracken mentioned, we need to of course 
work with Tribal leaders as we move on here.
    The hundreds that have participated in the Committee's 
events over the last two years, and many more that are doing 
tireless work in their communities, I want to tell you, the 
years that I have been here working with this Committee, I have 
met great leaders of the Indian communities nationally. To 
build on their foundations is something that we need to 
continue to do. We need to let the Nation know about who you 
are, what you are, what you have accomplished as well, and 
build the pride of our Native peoples.
    Throughout my time in Congress, I have had the opportunity 
to witness the beauty of the traditional Native dances, hear 
the uniqueness of our Native languages coming from you, and see 
the capabilities of Tribal governments. As was mentioned by Mr. 
Lee, that foundation of having a good, strong capable unit to 
work with in the Tribe is very important.
    So it has been a pleasure that I will forever cherish.
    Before we adjourn, I want to take a minute today to 
recognize the Committee's chief Clerk, Marilyn Kauakea Bruce, 
who sits there and keeps the technical equipment straight and 
proper. I am commending her for her 35 years of public service 
here, and 25 of which were in this Committee. Marilyn comes 
from Hawaii, and she comes from a place that is called Hana, on 
the island of Maui. To get there, when you drive, it takes two 
hours, because the roads are winding. And for some reason, the 
Hana people don't want to repair them.
    [Laughter.]
    The Chairman. They like it that way. But it is a beautiful 
community. That is her home. So I want to add my thanks to 
Marilyn for her capable service here, for the Committee, for 
the Senate and for this Country. She not only has worked for 
five different members of Hawaii's Congressional delegation, 
but also has served under Chairmen Inouye, Campbell, McCain, 
Dorgan and myself. So we are going to miss her, but she has 
served real well.
    So I just want to say mahalo nui loa to Marilyn, and again 
note her contributions to this Committee and our Native 
communities over her many years of service.
    Although they have not sat as long as Marilyn, I want to 
acknowledge the outstanding contributions and dedication of all 
of the staff of the Senate Committee on Indian Affairs. I 
should tell you they have really worked hard, and I know that, 
during my chairmanship. I should say my feeling was, we are 
having a hearing every week. And it is not only hearings, but 
because we wanted to keep the Tribes in touch with us and to 
learn directly from the Tribes about their concerns.
    We had other meetings that we held casually. And of course, 
we made it a point that these meetings would not be documented, 
so that they can be free to speak their minds, which they did. 
But as a result of that, we are able to put the concerns 
together, and if it needed legislation, we worked on that 
legislation. But we tried to do as many things as we can to do 
it administratively, so that it can be done more quickly to 
help the Tribes.
    So this Committee has been really busy doing that. And we 
have accomplished much in the 112th Congress. I know they will 
do much also in the future.
    In closing, Native Hawaiians don't say goodbye. We say hui 
ho'u, and it means, until we meet again, rahter than that is 
it. We will see you again, so that is hui ho'u. So to everyone 
here today, I extend my heartfelt blessings to you and your 
Tribes, your families, and to the United States of America. It 
is with much aloha that I say to you now, a hui ho'u, and we 
will see you again. We have much to do and we will try to do it 
together and bring about changes that will help the indigenous 
peoples of this Country be productive and to become part of 
this Country and what it produces.
    This Country needs you, it needs us, because we are the 
indigenous peoples here. We need to keep up that culture and 
identity that we are talking about. So thank you again, mahalo 
and a hui ho'u. This hearing is adjourned.
    [Whereupon, at 5:07 p.m., the Committee was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
